<html>
<title> - THE GROWING STRATEGIC THREAT OF ISIS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                  THE GROWING STRATEGIC THREAT OF ISIS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2015

                               __________

                           Serial No. 114-17

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
                          
     93-284 PDF                   WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
     
     
     
                                
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS
                                       
                      

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
                                 (II)
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable James F. Jeffrey, Philip Solondz distinguished 
  visiting fellow, The Washington Institute for Near East Policy.     6
Rick Brennan, Jr, Ph.D., senior political scientist, RAND 
  Corporation....................................................    11
Dafna H. Rand, Ph.D., Leon E. Panetta fellow and deputy director 
  of studies, Center for a New American Security.................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable James F. Jeffrey: Prepared statement...............     8
Rick Brennan, Jr, Ph.D.: Prepared statement......................    13
Dafna H. Rand, Ph.D.: Prepared statement.........................    26

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81


                  THE GROWING STRATEGIC THREAT OF ISIS

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. If members would take their seats. We are 
going to begin this hearing and I will ask all members to take 
their seats at this time.
    This morning the committee continues our focus on the 
growing threat of ISIS. Of course, this hearing takes on added 
significance as yesterday the President requested that the 
Congress formally back military action against this jihadist 
organization, an organization which has beheaded Americans and 
which has sold and raped thousands of women in Syria.
    And this is not a new threat for the members of this 
committee. One year ago, this committee took testimony from one 
of the few administration officials then sounding the ISIS 
alarm. That was Ambassador Brett McGurk.
    He told us that that group's mission, that ISIS' mission 
was clear. As he said, they wanted to ``carve out a zone of 
governing territory that would run from Baghdad to Syria to 
Lebanon.'' And, of course, at that point in time we were seeing 
a situation where ISIS was just beginning to expand into towns 
in Syria.
    And members of this committee on both sides of the aisle 
called for air strikes against ISIS so that they could not 
begin that process of expansion.
    Unfortunately, we went month after month after month. Town 
after town fell to ISIS across Syria and then across Iraq. Over 
the past 12 months, through a dozen hearings we have seen the 
ISIS threat only grow. Now we have three American hostages 
dead, including Kayla Mueller.
    Not only have they been killed but ISIS has beheaded two 
Japanese hostages and immolated a downed Jordanian pilot for 
the world to see.
    And this, again, is on top of what they have done in terms 
of raping, as I said, by now tens of thousands of women across 
Syria and other minorities, killing their husbands, raping the 
wives and the daughters.
    This group occupies a vast territory. It holds an estimated 
$2 billion in assets. Now, I don't think there has ever been in 
history a terrorist organization as well funded as this terror 
group.
    ISIS has used the ``virtual caliphate'' on the Internet to 
recruit foreign fighters at an ``unprecedented rate.'' Twenty 
thousand foreign fighters from 90 countries now make up the 
ranks of ISIS and, according to intelligence estimates, this 
includes 3,400 from the West and more than 150 Americans on the 
ground fighting for ISIS today.
    Over the past year, this committee has pressed the 
administration to intensify and accelerate its response. Some 
pieces are being put together, but too slowly.
    Of a 60-member coalition, 85 percent of all air strikes are 
from U.S. fighter jets, and this air campaign isn't pummelling 
the enemy as it should.
    It is not intense enough. All of us were glad to see Iraq 
Prime Minister Maliki go, but with respect to reports of 
Shi'ite militias wreaking havoc, the jury is still out on the 
Abadi government's ability to field a competent and inclusive 
security force there.
    The training and equipment of Iraqi forces also continues 
to lag, and we aren't likely see the 12 Iraqi brigades 
envisioned for several more months. Sunni tribal fighters are 
becoming more supportive of the national force, but the 
question is will they be in it for the long haul.
    And after 6 months of fighting, the committee is still 
deeply concerned to receive reports that the Kurdish peshmerga 
are outgunned on the front lines, occasionally running out of 
ammunition on the front lines, underarmed and under equipped by 
the United States. This has to change.
    Last fall, Congress voted to authorize training and 
equipping the Syrian opposition forces. But that is still not 
up and running and Assad looks more comfortable by the day. 
And, of course, this has left key allies in the region 
distraught and questioning the administration's strategy, as 
many here do.
    Despite these problems, Kurdish forces on the ground and 
concentrated air support from coalition forces in the air 
helped take back Kobani. Some 6,000 fighters there were 
killed--ISIS fighters.
    The Kurds have showed tremendous bravery and they deserve 
more and timely delivered aid to their cause of fighting ISIS.
    Jordan's tragedy is galvanizing the coalition. Getting 
Jordan to step up its role in the air campaign and to commit 
``thousands'' of troops to the border area with Iraq is a show 
of force.
    Last week, the committee met with retired General John 
Allen, the State Department's lead to counter ISIS, and pledged 
our support to get Jordan the equipment that it needs in this 
fight. The UAE has also recommitted fighter planes to Jordan.
    It is these Arab forces and voices that must be central in 
this fight. But they need to see and feel American leadership. 
I am pleased that the President has formally requested that 
Congress act on an authorization for use of military force 
against ISIS.
    Now he needs to make the case to the American people and 
this committee as we work to examine this proposal in depth. 
This won't be easy.
    But I am comforted by the fact that Ranking Member Engel 
and I are united in our desire to see bipartisan backing behind 
a proposal that ensures that the commander in chief has the 
authority needed to decisively defeat the enemy.
    And so Mr. Engel is joining us a little later and I would 
like to now recognize the ranking member, Mr. Sherman of 
California, for his opening statement.
    I thank our witnesses for being with us as well. Thank you.
    Mr. Sherman. I think I am the second ranking member, Mr. 
Chairman. I view this as our first hearing on the President's 
request for an authorization to use military force.
    I hope we focus on that request as the main duty of this 
committee and that we have not only hearings but that we move 
to a markup, and perhaps prior to moving to a markup we move to 
a discussion where members can take 5 minutes to explain what 
they would like to see in an ultimate resolution.
    We are all aware of the evil of ISIS. ISIS almost asks us 
to take military action against them. If they had a Madison 
Avenue marketing firm and tried to say what can we do to 
provoke Americans, this is exactly what they would do.
    What is interesting is that the Shi'ite alliance, what I 
would argue is at least as equal a danger, has done everything 
possible to avoid America taking military action. Whether they 
will bargain in good faith in Geneva I have no idea.
    I haven't seen it yet. But they know that going to Geneva 
dampens down American concerns and, of course, they were quite 
successful in avoiding bombing of Syria by the United States 
and ultimately willing to give up most of their chemical 
weapons to do so.
    Of course, America calls out for the immediate destruction 
of ISIS. I think we will see again in these hearings that to 
achieve that goal it would be extremely difficult, perhaps 
impossible and certainly involve tremendous American 
casualties.
    We can contain ISIS. We can work for its eventual 
destruction. We can push things in the Middle East in the right 
direction, to some degree, without enormous American 
casualties.
    But if we think we can remake the Middle East in our own 
image, we are certain to incur incredible American casualties 
and I am not sure that the Middle East will ever be what we 
want it to be.
    Mr. Chairman, we had in this very room just yesterday 
hearings on Iran and I think that the Shi'ite alliance, led by 
Iran, and including many of the forces in Baghdad including the 
Shi'ite militias of Iraq, including Assad and Hezbollah, is 
more dangerous and more deadly than ISIS.
    They have killed far more Americans, starting with the 
Beirut Marines back in the 1980s. They have carried on 
operations on virtually every continent. They are more capable 
of killing Americans in the homeland than is ISIS. They have 
killed far more people in the Middle East.
    Assad alone has killed nearly 200,000, and if we are going 
to focus on ``destroying ISIS'' we shouldn't just focus on 
that. We need to ask what comes next--who fills the physical 
space, the ideological space and the cyber space.
    Al-Qaeda is well positioned to fill the ideological space. 
They are an older organization but they may also learn social 
media to the level of ISIS. And as to the physical space, we 
see a Shi'ite alliance from Tehran to southern Lebanon that 
would be emboldened by the destruction of ISIS.
    Believe it or not, I don't have a longer statement. I 
didn't--I expected Mr. Engel to be here. I will look down the 
road to see if someone wants me to yield them a minute. I see 
no one and I yield back to the chair.
    Chairman Royce. Thank you, Mr. Chairman.
    We go now to 1 minute for Ms. Ros-Lehtinen, chairman of the 
Subcommittee on the Middle East and North Africa.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and we 
all are deeply saddened by Kayla's appalling murder by ISIL 
terrorists. She made it her mission to care about humanity in a 
region that seems to no longer value human life and our prayers 
go out to her family.
    The brutality of ISIL truly knows no bounds and this cancer 
continues to metastasize throughout the region. The President 
has finally given us a draft AUMF that may actually limit our 
engagement in the region.
    So I look forward to a robust debate here in our committee 
on it. But I firmly believe that no matter what happens with 
the AUMF, solving the problem of ISIL cannot happen without 
simultaneously addressing the problems of Assad and Iran.
    The administration's de facto partnership with Assad 
ensures that Syria will continue to be a terrorist breeding 
ground for groups like ISIL and we will never be victorious 
that way.
    A big part of the administration's ISIL strategy is to 
train and equip a program that seems to enhance the capability 
of moderate Syrian opposition leaders. Yet, Mr. Chairman, that 
program hasn't really started yet.
    The administration has said these fighters would be trained 
for defensive, not offensive, action and we are not engaging 
the Assad regime directly, only ISIL.
    I worry that this policy is not going to be a victorious 
one. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. We go to Mr. Keating of 
Massachusetts, ranking member of the Terrorism Subcommittee, 
for his opening statement.
    Mr. Keating. Thank you, Mr. Chairman.
    The confirmation of the death of American Kayla Mueller 
marks yet another tragic fatality at the hands of the 
terrorists, and while it is undoubtedly true that she would 
have gone on to personally enact great change, that her courage 
and empathy impacted far more lives than it can ever be counted 
and my prayers are with her loved ones at this time as I think 
all of us on the committee feel very strongly about.
    Along with Kayla, our country has lost James Foley, Steven 
Sotloff, Peter Kassig, while our allies overseas have lost 
David Haines, Alan Henning, Haruna Yukawa, Kenji Goto, Moath 
al-Kasasbeh.
    All of these people died tragically, and going forward it 
will be important for our continued response to contain a well-
developed and multifaceted strategy with the support of our 
trusted partners within an international coalition.
    As we now turn to the question of a new authorization for 
the use of military force, these are the metrics that I expect 
to be debated and continually reviewed and never forgotten.
    It is critical and it is clear that we consider this matter 
as the most serious of decisions that all of us make as a 
congress.
    Thank you, Mr. Chairman. With that, I yield back.
    Chairman Royce. Thank you. We go now for 1 minute to Judge 
Ted Poe, chairman of the Subcommittee on Terrorism and 
Nonproliferation.
    Mr. Poe. Thank you, Mr. Chairman.
    There is not a comprehensive strategy to defeat ISIS. The 
training and equipment of moderate rebels, whoever they may be, 
has not even started but when it does start it will not be 
enough to make a difference.
    The rebels probably will end up fighting Assad, not ISIS. 
The air strikes on ISIS have taken a toll but no one believes 
they alone will be enough to defeat this group that is embedded 
in the local population.
    The effort to turn Sunnis in Iraq against ISIS has also not 
shown any real significant progress. The Kurdish forces are the 
only group that has a record of battlefield successes against 
ISIS. They don't cut and run.
    For some reason, we refuse to give them adequate weapons 
they need to fight against ISIS. We seem to be more concerned 
about Baghdad and even Turkey and what they think than about 
helping the Kurds.
    My amendment to last year's intelligence authorization bill 
required a strategy to defeat ISIS. As we debate to give the 
President the power to go to war against ISIS, it would be nice 
if we knew exactly what the strategy was to win that war. What 
is the plan?
    And I will yield back.
    Chairman Royce. Thank you.
    I will go to Mr. Deutch later when he joins the committee 
for his opening statement. But in the interim this morning we 
are pleased to be joined by a distinguished group of experts.
    Ambassador James Jeffrey is a visiting fellow at the 
Washington Institute for Near East Policy and he previously 
served as Ambassador to Iraq and Turkey and to Albania.
    Dr. Rick Brennan is the senior political scientist at the 
Rand Corporation and prior to joining Rand he served as a 
senior advisor to the U.S. military in Iraq for 5 years.
    Dr. Dafna Rand is the Leon Panetta fellow and deputy 
director of studies at the Center for a New American Security. 
Previously, she served on the staff of the National Security 
Council. She was a professional staff member on the Senate 
Select Committee on Intelligence as well.
    And we welcome them all and without objection the 
witnesses' full prepared statement will be made part of the 
record and the members here will have 5 legislative calendar 
days to submit statements and questions and any extraneous 
material for the record.
    So, Ambassador Jeffrey, if we could start with you and ask 
you to summarize your remarks in 5 minutes. Thank you, sir.

  STATEMENT OF THE HONORABLE JAMES F. JEFFREY, PHILIP SOLONDZ 
  DISTINGUISHED VISITING FELLOW, THE WASHINGTON INSTITUTE FOR 
                        NEAR EAST POLICY

    Ambassador Jeffrey. Thank you, Mr. Chairman, Mr. Sherman, 
members of the committee.
    First of all, I think it is very important to note what we 
are doing today, as you said, considering an authorization for 
the use of military force.
    It is fitting and just that the Congress as well as the 
executive branch undertakes such grave decisions as this and I 
am proud to be here today to provide whatever help I can.
    Let me start with ISIS, and they have already gotten a lot 
of help from the three--four of you who have spoken. ISIS is a 
unique threat for all of the reasons you laid out, Mr. Sherman. 
I won't repeat them again.
    But we haven't seen anything quite like this before, 
particularly the hold on territory, the people, the 
conventional military capabilities and its appeal to many 
people in the region.
    But, secondly, ISIS is a threat in a unique sense because 
it is coming at a time of even more than usual disruption in 
the Middle East. It reflects the longer term trends and dangers 
in that region, a state system under extraordinary stress with 
its legitimacy questioned by the region's populations and with 
pan regional Islamic movements competing for the loyalty of 
these people.
    It will require time and great effort by the governments 
and peoples of the region to free themselves of ISIS and of the 
thinking that is behind it, as Mr. Sherman discussed a few 
minutes ago.
    In the end, they are going to have to do this. We can't. We 
can't tell them what their religion preaches and doesn't 
preach. We can't reach into the social structures of that part 
of the world. We have tried that. It didn't work very well.
    But there is a point here and that is we can't expect them, 
much as they want to help us, to do all that much because they 
are engaged in conflicts and struggles, ideological and 
sometimes physical, within their own societies.
    Thus, the President's goal to degrade and eventually 
destroy ISIS with America taking the lead is the correct 
mission. The campaign which the U.S. and a coalition of some 60 
countries is implementing is basically sound.
    The campaign has had considerable success of late from the 
pushback of ISIS in some areas to its containment in others and 
further success in the near future is actually quite possible.
    Still, this campaign could well face tough sledding when 
the coalition begins major ground defensive operations and it 
hasn't done that yet. A lot of questions remain open.
    As Representative Ros-Lehtinen said, we have got a lot of 
questions about Syria. What we have learned from Vietnam 
forward is you cannot defeat an insurgent group if it has a 
refuge in a neighboring country.
    You have to do something about Syria and you can't do 
anything about Syria without having a better policy toward 
Assad.
    We don't know whose boots on the ground are going to 
actually dig these guys out of places like Fallujah and Mosul. 
We don't know what the day after is going to look like. These 
are pretty tough questions.
    In sum, we should not assume that time is on our side. 
Given this extraordinary threat, I urge the administration to 
move faster, take more risks and apply more resources. If our 
commanders on the ground want it, and that is the question, 
they should have the weapons systems they need.
    If they need forward observers on the ground, if they need 
advisory teams out with local forces, they should get that 
despite the higher risks and costs.
    Likewise, if our diplomats need more active top level U.S. 
pressure on various partners and players, including Iran, we 
should follow their advice.
    In considering this authorization, I urge the Congress to 
give the administration maximum flexibility in timing and the 
use of forces. As one who has spent 4 years in Vietnam and 
Iraq, I am totally opposed to any enduring ground offensive 
presence if that means long-term counter insurgency campaigns.
    We have tried them repeatedly. They haven't worked. But if 
necessary to meet the President's very valid mission of 
defeating ISIS, we should not rule out operations such as U.S. 
ground action to liberate Najaf and Fallujah in 2004.
    While I hope it doesn't come to that, such a step could 
become necessary. The thing we should avoid above all else is 
putting limitations on our actions that will lead to us 
containing, not defeating and destroying, ISIS.
    That will be seen by ISIS and many people in the region as 
a victory against the U.S., the West and the international 
order and it will stimulate support throughout the world for 
this awful organization.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador Jeffrey follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
                                                     

    Chairman Royce. Thank you, Ambassador.
    Doctor?

    STATEMENT OF RICK BRENNAN, JR, PH.D., SENIOR POLITICAL 
                  SCIENTIST, RAND CORPORATION

    Mr. Brennan. Chairman Royce, Ranking Member Engel and 
members of the committee, thank you for inviting me to speak to 
you about this important subject regarding the growing 
strategic threat of ISIS.
    My argument today is straightforward and can be summarized 
in four key points. First, the key strategic threat that we 
face today is not from ISIS, al-Qaeda or any other group that 
is committing acts of violence or even genocide.
    Rather, it is the radical Islamist ideology that gives 
these groups cause and for this we need a grand strategy that 
applies all means of U.S. national power to address it.
    But to understand the scale of the challenge, one can look 
at the rapid expansion of the number of Sunni-inspired Salafi 
jihad groups during the last 25 years.
    In 1988, only three groups existed. By 2010, the number of 
groups had expanded to 32. Then, as a result of the turbulence 
created by the Arab Spring, the number rapidly increased from 
51--to 51 by 2013, a 62-percent increase in just 3 years.
    It is also important to highlight that the Islamist 
movement has a Shi'a variant--the Islamic Republic of Iran. The 
theological interpretations of the Ayatollah Khomeini continues 
to inspire Iran's aggressive actions against the United States, 
Israel and the Sunni-led countries in the region.
    Iran continues to be the largest state sponsor of terrorism 
in the world. Moreover, after the U.S. invasion of Iraq, Iran 
engaged in what could be called a covert war against the United 
States military and civilians operating in Iraq, using their 
proxy militias working at the behest of the Quds Force.
    According to one military estimate, Iranian-supported 
militias likely caused as much as 50 percent of U.S. casualties 
in Iraq during the 8 years that we were there.
    My second point is that ISIS is much more than a terrorist 
group. It is a revolutionary insurgency organization that seeks 
to establish new social, political and economic order without 
regard to internationally sanctioned state boundaries.
    Its rapid success in Iraq and Syria has caused an explosion 
of volunteers from around the world who have joined the fight 
in places such as Syria, Iraq, Somalia, Libya, Afghanistan and 
Pakistan.
    By 2012, with nearly 8 years of experience fighting both 
U.S. and Iraqi military forces and 2 years' experience fighting 
Syrian military and Iranian proxy militias, ISIS has become an 
experienced and hardened military force.
    In January 2014, ISIS used the growing Sunni alienation 
within Iraq as an opportunity to seize control of Fallujah, 
located just 50 miles west of Baghdad. Following this early 
success, ISIS began an aggressive infiltration of Iraq that set 
the stage for the June offensive.
    By August 2014, ISIS was in control of approximately 35,000 
square miles of Iraq and Syria, a land mass that is 
approximately the size of the state of Indiana, and had begun 
to establish structures of governance and now calls itself the 
Islamic State.
    My third point is that a number of factors contributed to 
the failure of the Iraqi military in 2014. Many of these were 
known in advance. One key factor was Prime Minister Maliki's 
efforts to consolidate and control the Iraqi military and 
security forces and replace incompetent officers with officers 
who were personally loyal to him.
    A second factor was the endemic corruption that permeates 
the Iraqi political system and military establishment. Finally, 
it is also important to highlight that from 2009 to 2011 the 
U.S. military had consistently reported that the Iraq military 
had significant shortfalls in virtually all areas that were 
needed to conduct complex military operations without direct 
U.S. military assistance.
    In part, this was the reason that General Lloyd Austin, 
General James Mattis and Admiral Michael Mullen recommended a 
residual force remain in Iraq of between 14,000 and 20,000.
    My fourth point is that the administration's initial 
response to ISIS--the ISIS offensive in 2014 was a necessary 
first step to blunt the assault.
    However, in my professional opinion as a career Army 
infantry officer and military planner who spent 5 years in Iraq 
between 2006 and 2011 as a senior advisor to the U.S. military, 
our current efforts are insufficient to enable Iraq to regain 
control of its territory and the key cities of Fallujah, Tikrit 
and Mosul and defeat ISIS either in Iraq or in Syria.
    I believe that in addition to what the U.S. military is 
doing today the following would be required to achieve success.
    First, develop a more robust advise and assist mission 
using conventional forces--the forces that we have there now 
are insufficient due to rapidly giving ISIS time to develop; 
second, enhance the size and scope of the command and control 
mission; third, employ U.S. special operations forces with 
attached tactical air control parties and other coalition 
ground forces down to the battalion level to enable them to 
assist in the conduct of an enhanced air campaign; and finally, 
to deploy U.S. special operations forces to conduct targeted 
counter terrorism missions in both Iraq and Syria.
    In conclusion, there is an understandable reluctance to 
once again put American ground forces in Iraq. But if the 
threat to the region and the United States is as grave, using 
the wording of the AUMF, as the President indicated in the 
proposed AUMF, it is a mission that must be undertaken and, as 
Ambassador Jeffrey said, we should not have constraints on the 
AUMF and that we are going to have to be willing to use the 
ground forces if we are going to have success.
    [The prepared statement of Mr. Brennan follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               

    Chairman Royce. Thank you, Dr. Brennan.

 STATEMENT OF DAFNA H. RAND, PH.D., LEON E. PANETTA FELLOW AND 
 DEPUTY DIRECTOR OF STUDIES, CENTER FOR A NEW AMERICAN SECURITY

    Ms. Rand. Thank you. Chairman Royce, Ranking Member Engel, 
members of the esteemed committee, thank you for holding this 
hearing and for inviting me to testify on the timely topic.
    I would like to discuss three key questions that Americans 
are asking today about the AUMF and the threat that ISIS poses. 
The questions are pretty simple. They come down to what, why 
and how.
    What is ISIS, they are asking. Although ISIS has its 
roots--al-Qaeda offshoot--in both its brutality and its 
battlefield successes, it represents a new type of threat. I 
will just mention three particular characteristics of ISIS 
because many have been articulated already by the members of 
this committee.
    First, the savagery is at the core of the ideology. While 
al-Qaeda justifies individual suicide bombing attacks against 
civilians through fatwas explaining the conditional necessity, 
ISIS has adopted an entirely new ideology, manipulating select 
stories from Islamic history and modern jihadi texts to 
redefine jihad.
    It has generated a blanket justification for violence 
including against women and children. Second, the group, as 
already mentioned, has adopted a military doctrine that is not 
based on the typical terrorist logic of the weak fighting the 
powerful.
    Instead, ISIS aspires to fight states and their militaries 
as a peer. It believes in the necessity of full blown military 
campaigns and seeks to control as much territory as possible.
    And finally, ISIS is not bound by the same political 
concerns or need to appeal to the public. We just saw that with 
the horrific images of the Jordanian pilot who was immolated by 
ISIS last week.
    With a violent approach that has little regard for 
political strategy, ISIS is now a decentralized defused 
aspirational social movement that follows few orders and few 
chains of command.
    The second question that Americans are asking is why does 
this matter to us, to our interests, to our role in the world. 
After 14 years of deep U.S. military engagement in the broader 
military East, Americans have a right to a strong, clear and 
convincing answer to this question--why should our resources 
and our U.S. military be deployed in this fight.
    The best answer is that we are trying to degrade and 
destroy ISIS to achieve three very specific national security 
objectives--to prevent ISIS attacks against the United States 
and our direct interests abroad, to degrade the organization's 
ability to control populated areas from which it can recruit 
foreign fighters and to protect the sovereignty of U.S. 
partners against ISIS.
    The third question is the most complicated and we will 
discuss it today. The question is how--how do we defeat ISIS or 
at least how do we degrade this threat enough to achieve the 
three basic goals that I just enumerated.
    The overall strategy to defeat and degrade ISIS will 
necessarily entail coercive and noncoercive tools of U.S. 
statecraft. In other words, the use of U.S. military power is 
just one tool and it must be integrated with a set of other 
tools, particularly multilateral and bilateral diplomacy.
    For example, perhaps the greatest success we have seen so 
far against ISIS is this administration's ability to mobilize a 
diverse and significant international coalition. Over 60 
nations have not just committed to fighting the threat in words 
but they are acting.
    They are participating in the air strikes, they are 
countering ISIS' financing, they are stopping the flow of 
foreign fighters and they are responding to the humanitarian 
catastrophe.
    The use of military force is therefore a necessary but not 
sufficient part of the strategy. The draft language offered by 
the President yesterday, in my view, suggests a very carefully 
tailored strategy based directly on the advice and counsel of 
the military leaders and also the evidence of what is working 
so far in the past 5 months.
    What have we seen in the past 5 months that is effectively 
degrading ISIS' capabilities in Iraq and Syria? We have seen 
evidence that since September we are making significant 
progress in degrading ISIS by using a combination of air 
strikes by the coalition coordinated with local forces on the 
ground.
    Through this partnership approach, we have eliminated 
nearly 6,000 ISIS fighters in Iraq and 1,000 in Syria. We are 
diminishing supply lines and manpower and, probably most 
importantly, we have decreased the group's momentum.
    We have three main military partners on the ground. We have 
the Iraqi security forces, the Kurdish fighters, as has been 
mentioned associated with the KRG, and then we have our Syrian 
opposition forces which include both Arab and Kurdish factions.
    These groups are committed to fighting ISIS and have deep 
connections with the local populations in the region. They are 
best placed to understand the social-political contacts that 
has allowed ISIS to incubate itself and thrive in these tribal 
areas in the first place.
    Therefore, in conclusion, I believe that a limited tailored 
use of U.S. military force in this operation reflects a larger 
strategy, one that has preliminarily been working, a strategy 
that prioritizes the role of the partners on the ground in 
ultimately defeating ISIS and filling in the vacuums left 
behind upon ISIS' retreat.
    The limited tailored approach suggests to the war-weary 
American public and the Muslim world that we are not interested 
in another decade-long U.S. presence on the ground in the heart 
of the Middle East. Degrading ISIS and reducing the threat it 
poses simply does not require that kind of approach.
    In conclusion, force is one element of our strategy and we 
should use it wisely, judiciously and in a way that is most 
effective. This one element is certainly insufficient to 
degrade ISIS in a sustainable long-term manner.
    So I urge you, even as Congress is focused on the 
appropriate use of force, it must not lose sight of the larger 
political strategy and the urgent diplomatic work that will be 
necessary.
    I look forward to your questions so that we can talk more 
about these nonmilitary objectives which differ across three 
distinct theaters--Iraq, Syria and in the broader global 
context to diminish the appeal of ISIS ideology.
    Thank you.
    [The prepared statement of Ms. Rand follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               

    Chairman Royce. Thank you, Dr. Rand.
    To get to a real world example, Ambassador Jeffrey, you 
raised the question. So ISIL has taken Mosul, and who is going 
to dig them out of there?
    And this committee raised the issue before they got to 
Mosul that we should have used air power while they were on the 
open desert to decimate that force. But that wasn't done at 
that time.
    So as of this morning, the peshmerga forces had surrounded 
ISIS in Mosul on three sides. They are working to cut ISIS' 
ability to maneuver in the area.
    The greatest problem right now is the area south of Mosul 
where Iraqi Government forces and where the Sunni tribes are 
struggling to gain control of Saladin Province.
    So when we look at the authorization just sent down to the 
committee, we are the committee of jurisdiction, so from the 
White House they sent to Congress an authorization that would 
provide the flexibility to conduct ground combat operations in 
limited circumstances and we go through some of the lists, the 
use of special operations forces to take military action 
against ISIL leadership and for intelligence collection and 
sharing and missions to enable kinetic strikes, in other words, 
on the ground in order to call in air strikes, and I guess 
there's about 3,000 special forces involved in that right now, 
or the provision of operational planning and other forms of 
advice and assistance of partner forces. I want to get to this 
question of assistance for our partner forces because I am 
concerned about the situation that the Kurds face.
    We have had numerous meetings with them in which they have 
called repeatedly for anti-tank weapons that they could use, 
for artillery, for long-range mortar, you know, armor, and that 
has not been done.
    And so as they surround Mosul this gets to the question of 
what kind of leadership on the ground would be given, what kind 
of weaponry would be given and what kinds of air strikes will 
be, you know, called in by our spotters on the ground.
    And maybe we can open with that, Ambassador. Would you like 
to give us your thoughts on some of this?
    Ambassador Jeffrey. Certainly, Mr. Chairman.
    It is, to some degree, two separate questions. Arming the 
Kurds is an important issue and there are two elements to it.
    One is what they need and, secondly, the political 
ramifications in the longer term because there will be an Iraq 
and there will be a lot of problems in the Middle East after we 
defeat ISIS, and one of the problems is keeping Iraq together.
    So the administration's position--and it makes sense, it 
was the position we had when I was there--is to give these 
weapons through the Iraqi Government at least with a pro forma 
check to the Kurds.
    We just have to try a lot harder to ensure that weapons go 
to the Kurds. It is easier for what I call defensive weapons.
    These are MRAP and Humvee armored vehicles that are 
basically for counter insurgency. These would be anti-mine 
equipment, night vision goggles, armor and all of that thing.
    The question is long-range artillery, as you mentioned, and 
armor because that can not only be used in an urban situation 
against ISIS, it can also be used in a conflict with Baghdad.
    That is a tricky question. For the moment, I would focus on 
giving them better equipment to do what they are doing now to 
ensure that they have the ammunition, that they have the armor 
to move around the battlefield.
    I am not sure that giving them artillery and tanks is such 
a good idea. Assuming they can hold their ground now, and they 
have been, including in a quite difficult attack in Kirkuk last 
week, in terms of the Kurds--the Peshmerga taking Mosul--there 
are various opinions on that.
    Part of Mosul was always considered Kurdish in the sense 
that there was a Kurdish element to the population in east 
Mosul, and they may be willing to fight in or near that. I am 
not so sure they would be willing to take heavy casualties, and 
they would take heavy casualties to fight to take over----
    Chairman Royce. Look, they are taking heavy casualties now. 
They are taking it against artillery when they don't have 
artillery to match. Only 25 of the 250 MRAPs that we sent 
through Baghdad got through.
    So I am just--I am just pointing out that the weaponry is 
not getting through to the Kurds and I think on both sides of 
the aisle here--you know, the fighting is going to be done by 
Kurdish, by Jordanian, by Sunni tribes, by, you know, Arab 
troops and Kurdish troops on the ground.
    And if we are not giving them the assistance they need, you 
know, this allows ISIS not to be rolled back. We need to see 
them decisively rolled back.
    But let me go to Dr. Brennan just for a minute in terms of 
some of your thoughts on this because I know that you have 
written about peshmerga and coalition ground forces, the 
necessity to help them on the ground. Would you like to 
elaborate?
    Mr. Brennan. Thank you--thank you, Mr. Chairman.
    My view is that in order to assist these organizations, 
whether they be the peshmerga or coalition forces that we bring 
on the ground, we have got to put U.S. forces with them.
    And that is the perfect mission that we have--the United 
States Army special forces. I would be putting A teams down at 
the battalion level to help them plan, get intelligence, to 
help them organize and to allow them to bring in the type of 
air support that is necessary at the precision level.
    The problem that you are going to have as you go into 
cities is there will be a great reluctance to use air support 
as you are in there because of the potential for collateral 
damage.
    Having our troops on the ground gives the sense of 
confidence that you can then bring those weapons where they are 
needed, and I think without having putting our boots on the 
ground to do that will be extremely difficult to win this 
battle.
    Chairman Royce. We have about 3,000 special forces now, 
U.S. personnel, on the ground in theater and they are calling 
in air strikes right now. You are saying as you get into these 
cities they need to be forward deployed in order to make 
certain that the ISIL targets are the targets that are hit.
    Mr. Brennan. Exactly, and they need to be engaged with all 
the coalition military so we have an integrated air campaign, 
an enhanced air campaign much greater than we have right now.
    Chairman Royce. My time has expired.
    I will go to Mr. Engel, the ranking member of the Foreign 
Affairs Committee.
    Mr. Engel. Thank you very much, Mr. Chairman, and thank--I 
want to thank our witnesses for their testimony. Our hearing 
today takes place in the wake of President Obama sending his 
request for the use of force to the Congress yesterday.
    The AUMF lands squarely in the jurisdiction of this 
committee and I look forward to working with Chairman Royce and 
all of our colleagues on both sides of the aisle to thoroughly 
review the President's proposal and our overall strategy to 
defeat ISIS in the days and weeks ahead.
    We are, obviously, trying to deal with the appalling 
humanitarian situation including the 3 million Syrians and 
hundreds of thousands of Iraqis who have been driven from their 
homes as well as the spillover effect in Jordan, Turkey, 
Lebanon and Egypt.
    We have worked to cut of ISIS' funding stream, cracking 
down on their efforts to smuggle oil and kidnap for ransom, and 
I am working on legislation to provide cultural properties so 
that groups like ISIS cannot steal a country's heritage and 
sell it to pay for the weapons of terror.
    We are attempting to stem the flow of foreign fighters, 
helping to ensure that when we remove an ISIS extremist from 
the battlefield there isn't another recruit from France or 
England or the U.S. waiting to take his place, and the 
coalition is pushing back against false, dangerous and violent 
ideology preached in ISIS propaganda.
    Coalition military operations are making some progress and 
under the cover of coalition air strikes we are seeing some 
reversals in ISIS gains.
    As the chairman spoke about, we continue to advise and 
assist the Iraqi security forces and the Kurdish peshmerga, and 
I share the chairman's thoughts on the peshmerga and the Kurds.
    Isis has been driven out of Kobani and we continue to 
prepare for training and equipping moderate vetted Syrian 
opposition, though this effort is slow moving and long, long, 
long overdue, in my opinion.
    So the coalition is working on a multilateral, the way a 
multilateral effort should and when questions arise we are 
trying to meet concerns.
    We are able to bring the UAE back into this effort as one 
of our most reliable allies in the region and that is why 
Jordan has doubled down on the commitment--on its commitment 
after the aftermath of the horrific murder of Captain al-
Kasasbeh. Obviously, we are not out of the woods.
    I want to start by talking about the AUMF. The President 
put his language as a starting point on the AUMF so I would 
like to hear from our witnesses what their thoughts are.
    Should this AUMF be limited to a certain geographic area? 
Should it limit U.S. combat troops on the ground? Should we 
consider a sunset clause for an AUMF? Why don't we start with 
Ambassador Jeffrey?
    Ambassador Jeffrey. I would urge the committee to give as 
much latitude as possible to the administration, particularly 
on timing. I am very concerned about the 3 years because having 
been in the administration it is going to be very difficult.
    As they come in--the next administration comes into office 
and they are just getting their people confirmed in May or June 
2017, to have to think about a resolution while also thinking 
about what their overall strategy is going to be--if there has 
to be a time limit on it, and I understand why people would 
want it, I would urge a broader one.
    I am also a bit concerned about the enduring offensive 
ground operations because that can be interpreted to mean no 
ground operations.
    Certainly, the kind of operations by special forces 
advisory teams and such that Dr. Brennan has talked about are 
very feasible and are the normal procedure in such campaigns--
we have used them many times before--and if the commanders on 
the ground need them I think they should.
    I would not rule out using American ground troops to take 
territory if that is necessary to defeat ISIS. What I would 
rule out myself, but that is a political decision, is long-term 
American presence on the ground as we saw in Iraq, in 
Afghanistan, in Vietnam. It does not work, Mr. Engel.
    Mr. Engel. Isn't enduring--people on the other side worry 
that enduring might be allowing troops for a longer period of 
time than people would like? So you have got people on both 
sides of the divide worrying about the nebulous term enduring.
    Ambassador Jeffrey. It is a bad idea to have enduring 
ground troop presence almost anywhere in the Middle East and we 
have traditionally not done that before 2001, 2003 and that's a 
good rule to get back to generally, with exceptions.
    Advisory teams, air power, perhaps, in the long term but 
you don't want to keep a large ground presence because that is 
perceived as a threat by various actors in the region.
    Mr. Engel. Thank you. Let me ask Dr. Brennan and then Dr. 
Rand to comment.
    Mr. Brennan. I would agree with what Ambassador Jeffrey 
said. The other point I would like to make, though, is that 
limiting the President of the United States to--not allowing 
him to have enduring ground operations sends a signal not only 
to our friends but also to our enemies.
    We have to go into this--if this is a grave threat to U.S. 
national security, I believe the Congress ought to authorize 
the President to do what is necessary and, more importantly, 
while there may be no plans to do an enduring operation, we do 
not know where the war is going to evolve in 6 months and we 
have to be able to have the flexibility of the President and 
commanders on the ground.
    And I see this as somebody who has been with troops on the 
ground to say that the lawyers are going to be wrestling with 
this every day, trying to understand what is an enduring 
offensive operation or is it defensive, it is going to cause so 
many problems, that I think that it would be a mistake to keep 
a clause like this in the AUMF.
    Mr. Engel. Thank you. Dr. Rand, you said a lot about this 
in your written testimony.
    Ms. Rand. Overall, I think the AUMF strikes the right tone 
in terms of balancing between the flexibility requirement and 
reflecting the strategy, as I mentioned, that is working in a 
preliminary way.
    The most important clause here, I think, is the sunset 
provision because, as my colleagues have mentioned, so much is 
changing and is fluid on the battlefield that the question of 
how extensive the ground forces need to be, the question of the 
geography, the question of what is an affiliate or associate of 
ISIS--these are questions that in 2 years, 3 years we will have 
to reevaluate.
    Congress and the executive branch will have to reevaluate. 
So I see that, some type of prevention, as the most important 
limitation on the use of force because it demands a 
reevaluation of the strategy and demands questions such as 
metrics of success and progress that Congress will require 
based on reporting requirements in here.
    The only final question I would add is the geographical 
scope in terms of the global--the global authorization for the 
use of force against ISIS' affiliates and associates. That 
might need to be clarified.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. We go now to Ileana Ros-Lehtinen of 
Florida.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman.
    The Obama administration states that the training of Syrian 
moderate fighters is a large part of our strategy. But as of 
yet, we have not seen much evidence of this success.
    Former Ambassador to Syria Robert Ford said in our Middle 
East Subcommittee that the administration doesn't bother to 
coordinate or discuss strategy with Syria's moderate fighters 
at all and won't strike ISIL near Aleppo, the moderate 
stronghold.
    If this force does eventually get up and running, what 
should its mission be and who will--who do you think will set 
and coordinate the strategy? Will it be the United States or 
the coalition partners?
    Can these forces fight against Assad and ISIL 
simultaneously? And, Ambassador Jeffrey, you testified that 
Iran's policies almost drove Iraq apart between 2012 and 2014 
and also that we won't be able to defeat ISIL over the long 
term without a more forceful U.S. policy toward the Assad 
regime.
    What can you tell us about Iran's goal and the activities 
in Iraq and the region and how does this impact our fight 
against ISIL?
    Do you suspect that we are not going after Assad because we 
are negotiating with Iran on nukes? And, lastly, when Iran 
violates Iraqi airspace, did or will Prime Minister Abadi, the 
U.S. and our coalition turn a blind eye because it is not 
convenient?
    Ambassador Jeffrey. Thank you, Madam Chairman.
    First of all, I agree with you that we need to do much more 
to explain how Syria fits in to this whole equation. The 
campaign is correct in putting the priority on Iraq because 
there we do have allies.
    There we do have--we are engaged and Syria is a longer term 
question. But that doesn't mean you can now not answer 
questions. Our allies in the region--most of them want us to do 
more against Assad. Assad contributed to the creation of ISIS. 
Assad is allied with Iran.
    As my colleague Dr. Brennan said, we are dealing not just 
with one extreme Islamic violent movement in the region with 
ISIS. We are dealing with a whole series of them and one of 
them is the Wilayat al Faqih side of the Iranian 
establishment--the religious establishment.
    It is both a country and a cause, and the poster boy for 
the cause is Qasem Soleimani, who has done a great deal to 
drive Iraq into the disunity that ISIS was able to exploit in 
2014 by allowing and in some cases encouraging Maliki and other 
members of the Shi'a governing coalition to oppress the Sunnis 
and disagree with the Kurds such that the country was not 
holding together very well, and then ISIS came on the scene and 
we saw what happened. So we have to simultaneously deal with 
all of these problems.
    We have a lot of friends in the region. I can't say that 
the administration doesn't do more against Iran or even Syria 
because of the negotiations. I hope that isn't the case. But I 
think that we need to separate the two out.
    That negotiation on nuclear weapons has to rest on its own 
merits, whatever they may be, and our policy toward providing 
security in this region with our allies has to be moved forward 
without consideration of other exterior questions.
    Ms. Ros-Lehtinen. Thank you so much. The other witnesses?
    Mr. Brennan. We need to approach this issue from a 
regional--develop a regional strategy to address this. As 
Ambassador Jeffrey said, we have got a lot of partners in the 
region that are being threatened by what has taken place.
    If you look at the rapid expansion of what Iran has done 
recently, currently they have--Hezbollah in Lebanon they have 
the large number of Shi'a militias in Iraq, perhaps as many as 
5,000 to 10,000, and when we look at the success in Iraq, a lot 
of the success is being done by the Shi'a-led militias and 
Qasem Soleimani in Iran inside Iraq that will tend to distort 
Iraqi politics in the long run.
    You have got the Houthi in Yemen and you have got Assad in 
Syria. You essentially have the creation of a Shi'a crescent 
that is threatening all of our allies in the region and it is 
no wonder that these allies, when we ask them to join us, come 
to us and are concerned because they see Iran as a primary 
threat.
    And we have to come together and develop a strategy that 
takes consideration of our allies' concerns and moves on from 
there rather than just trying to look at, solely, at the issue 
of ISIS, although I agree with Ambassador Jeffrey----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Brennan [continuing]. ISIS in Iraq has got to be the 
first priority.
    Ms. Ros-Lehtinen. Thank you. Sorry I ran out of time. Thank 
you.
    Chairman Royce. The ranking member of the Subcommittee on 
Terrorism here, Mr. Brad Sherman of California.
    Mr. Sherman. Mr. Chairman, I have now become the ranking 
member on Asia but----
    Chairman Royce. Congratulations on the promotion.
    Mr. Sherman. For purposes--but I believe ISIS is a lesser 
threat to the United States than the Shi'ite alliance. Ground 
troops, if necessary to take territory, will be necessary to 
hold the territory. The peshmerga are not going to be welcomed 
in Sunni Arab areas and the Iraqi army, we saw what they did.
    It was the greatest transfer of weaponry to a terrorist 
organization in history. The Shi'ite--the Iraqi Government has 
some effective fighting units. They are the Shi'ite militias 
that have engaged in murderous ethnic cleansing of Sunnis under 
reported in the American press and so it is--so I don't see who 
we have that will be a ground force to take Sunni areas.
    I do know that I don't want to vote to have American 
soldiers going house to house in Mosul in a bloody hand to hand 
combat role because no other ground forces are available.
    As to the AUMF, we have got the text the President sent 
over leaves in place the 2001 AUMF--in effect, republishes, 
reaffirms it. Well, what is that that we would be reaffirming 
15 years later?
    Unlimited in time, unlimited in what weapons or tactics or 
ground forces. It authorized over 100,000 forces--soldiers in 
Afghanistan. Last decade it would authorize 100,000 U.S. 
soldiers to be deployed on the ground next decade and, of 
course, unlimited in geography.
    So if we republish rather than repeal that, it is hard to 
say that the President doesn't have enough authority to do all 
the things that many of us hope he does not do. And then as to 
the timing issue, it would--if Congress is doing its job and 
there's a 3-year AUMF, after 2 years we passed something else 
rather than waiting for 2 days while we have soldiers in the 
field wondering whether Congress will pass the bill.
    But I want to focus with my time on economics. This is the 
richest terrorist organization in history. They got a huge 
quantity of Iraqi currency. I don't know if our witnesses have 
qualifications to focus on this.
    What some countries have done is they have done currency 
exchanges. Your--you know, your blue money is going to be void 
because you got to change it for purple money.
    This inconveniences the corrupt, tax evaders, et cetera, 
and therefore is extremely unpopular with governments that are 
dominated by corrupt tax evaders, which may very well describe 
Baghdad.
    Do any of you--are any of you qualified to talk about 
whether Iraq should do a currently exchange designed to 
invalidate the many billions of dollars' worth of Iraqi 
currently that ISIS seized in the Mosul Bank? Well, we will 
move on to another question.
    Chairman Royce. For what it is worth, Ranking Member, I 
think it is a--I think it is a good idea and I would suggest 
maybe after you reflect on it if you could have a written 
response to the congressman's question that would be helpful.
    Mr. Sherman. Yes. And let me establish just a policy for 
this committee. I will yield automatically to any member who 
wants to say, ``I have a good idea.''
    Chairman Royce. So it won't happen all the time.
    Mr. Sherman. It is unlikely to interrupt me very often. In 
World War II, the French lived under enemy occupation and we 
regarded those areas as areas to be bombed and constricted. 
Obviously, you couldn't--the Vichy government wasn't allowed to 
buy Argentine wheat and just bring it in a ship across the 
ocean.
    We regarded occupied France as an asset of the Nazis. Yet, 
I am told and news reports indicate that the Iraqi Government 
is paying the civil servants in Mosul and, of course, ISIS then 
takes as much of that money as they want. Do any of you have a 
comment about that and whether it should continue? Ambassador.
    Ambassador Jeffrey. Certainly, Mr. Sherman, that is a tough 
question. I know that the Embassy is focused on that. They saw 
the news reports as well. It gets also to the question of can 
you just change the currency.
    We did that from time to time in Vietnam. It had--when I 
was there--it had a lot of second and tertiary level impact on 
a lot of people. I think that the reason that the Iraqi 
Government is continuing these payments is, first of all, you 
know, it is hard to explain this but it is their legal 
obligations of the government to their civil servants. The 
second thing is that----
    Mr. Sherman. Somehow the government in exile of France did 
not feel it necessary to pay the teachers of Vichy. Go on.
    Ambassador Jeffrey. Right, but the government in exile in 
France was not considered the legal Government of France, 
deGaulle including, by us. That is a whole other complicated 
question.
    The Iraqi Government is, and I think that is important, but 
the most important thing is it gets to the questions you have 
asked about who is going to do the liberating.
    The answer is much of it by the Sunni population, the Sunni 
tribes, the Sunni members of those communities. They need to 
feel a certain loyalty to Baghdad. I am not so sure cutting off 
their money is going to give them that loyalty.
    Mr. Sherman. Every penny that goes to ISIS-controlled areas 
is scooped up by ISIS. But just take 30 seconds to say in 
addition there are news reports that we are providing free 
electricity--the Iraqi Government provides free electricity to 
the ISIS areas.
    So in World War II where we took it seriously we bombed the 
electric generation facilities in occupied France. Here, the 
Mosul Dam, I believe, provides electricity to Mosul. The Mosul 
Dam was retaken by Iraqi forces.
    So it is not--it is not free electricity because the 
consumer has to pay. They pay ISIS. I yield back.
    Chairman Royce. Thank you. We go now to Mr. Smith of New 
Jersey, chairman of the Subcommittee on Africa and Human 
Rights.
    Mr. Smith. Thank you very much, Mr. Chairman, for convening 
this important hearing.
    I want to thank our three panelists for their extraordinary 
service to our country and providing this committee and by 
extension the American people the benefit of your insights and 
recommendations.
    Ambassador Jeffrey, if I could ask you, you say you do not 
think a campaign of strategic patience is appropriate. How do 
you think President Obama defines that?
    You also point out that--in your testimony that the stress 
when the coalition begins a major ground offensive operations 
would occur.
    You talked about day-after scenarios and a containment 
mission that would eventually--would eventually crater the 
coalition to lead to new ISIS threats and then you say time is 
not on our side and that the administration has to move faster.
    Has the administration moved fast enough years to date and 
does the President's AUMF meet the criteria to move faster?
    Ambassador Jeffrey. Thank you very much, Mr. Chairman.
    First of all, the administration moved not at all after my 
colleague, Brett McGurk, came up here and talked to you over a 
year ago and that has led to a tragedy--first, Fallujah in 
January and then Mosul in June.
    I will say, as having worked with this administration, that 
I am surprised at how rapidly the administration responded in 
August when Erbil was threatened, and since then I think that 
the administration and the Central Command has done a very good 
job putting together this coalition, getting a lot of steel on 
target and stopping and in some cases pushing back ISIS.
    My problem is more what is going to happen next. This gets 
to the question of strategic patience. President Obama has laid 
this out last week in his national security strategy.
    He laid it out in his interview with CNN's Fareed Zakaria 
and he laid it out in his State of the Union speech. The 
President is, clearly, very nervous about the use of military 
force, particularly ground forces, without a lot of allies, 
without a lot of legal backing, without the support of you and 
everybody else.
    Sometimes that is necessary. Sometimes that is smart. We 
could have used a little bit more of that a decade ago. But 
there are times when action is necessary. I am concerned we may 
not be moving fast enough.
    Mr. Smith. Could I just ask you as well how do you think 
ISIS--the ISIS leadership and other interests who are 
completely antithetical to our interests in the region look at 
what is happening at the White House and what is happening up 
here?
    Ambassador Jeffrey. That is a very good point, and I was 
about to use it saying any restrictions on the authorization is 
going to encourage the enemy--don't encourage the enemy. But 
fear is fear.
    These guys are so busy dodging precision munitions right 
now that I don't think they are going to spend a lot of time. 
What I worry about is Iran, Russia, China.
    In all of our conversations, members of this committee, 
that we talk about with ISIS we have to take this in the 
context of a whole extraordinary variety of challenges we have 
seen over the last year.
    China, Russia, al-Qaeda elements on the march, particularly 
in North Africa, ISIS itself, Syria and Iran--they are all 
watching us. ISIS probably won't respond the most to any signs 
of weakness but others might, and I am concerned across the 
board with all of these challenges.
    Mr. Smith. With all due respect to the administration, I 
have repeatedly asked that they designate Boko Haram a foreign 
terrorist organization. We had several hearings on it. Finally, 
I introduced legislation.
    On the day when we were having another hearing after visits 
by myself and others to both Jos and Abujah, we were getting 
ready to mark up the bill. The administration announced it a 
day late and a dollar short but welcomed it nevertheless.
    The parallels to Boko Haram--if we don't train, in my 
opinion, and secure the cooperation of the Nigerian military, I 
was in Jos. I saw how they had firebombed so many churches.
    They are going after Christians with a vengeance but they 
are also going after Muslims who stand in their way. Your 
thoughts on the parallels--again, what we do vis-a-vis ISIS as 
well as training up battalions who are human rights vetted 
Nigerian soldiers to combat Boko Haram.
    Ambassador Jeffrey. Again, and I would go back to some of 
my responses I made earlier and perhaps modify them on the 
peshmerga, basically, you have to find allies who are willing 
to fight.
    If they are willing to fight, I wouldn't worry all that 
much about vetting them. I would give them weapons. In the case 
of Iraq, it is a bit complicated but--and it is very 
complicated about sending the peshmerga into certain areas. 
But, certainly, they deserve more support from us.
    They are doing well and I hope they get it. People who are 
fighting Boko Haram deserve support from us, the same kind of 
support that we are giving the folks in Iraq.
    This is a region wide struggle with a many-headed enemy and 
I think that if you are a day short and a dollar behind and 
only at the last minute you take action such as declare Boko 
Haram, obviously, a terrorist organization you have just 
defined strategic patience.
    Mr. Smith. Again, thank you for your testimony and for your 
leadership.
    Chairman Royce. Mr. Meeks of New York, ranking member of 
the Subcommittee on Europe.
    Mr. Meeks. Thank you, Mr. Chairman, and I want to thank the 
witnesses for your testimony today.
    I look at these hearings as I did back in 2001 when we were 
endeavoring to try to decide what was the best thing to do 
there and I also try to utilize where we are now, understanding 
what took place in 2001 and so that we could have learned from 
it.
    And sometimes I think what the President is talking about 
when you say patience, et cetera, we didn't have any patience. 
In fact, we thought that and sometimes we think that it is a 
quick hit.
    I remember very well when Shock and Awe happened, and then 
a few days later we saw the President of the United States say 
mission accomplished. We thought that that was going to be it.
    Many members of this committee said once we got in there 
that individuals will be waving a flag and saying, thank you, 
America and we are bringing all of our values to them and they 
would just embrace it and that would be the great thing and 
everything would be different. Ten, eleven years later, we 
still had troops on the ground, are still there.
    We committed--we have committed more in the region than 
anyone else and still yet I hear folks say we didn't do--no one 
has lost over 6,000 lives in military combat.
    It is us, and then I still hear and I have heard some 
testimony here today where our allies said, well, you, United 
States, you need to get back out there and get some more folks. 
Yet, in their region they are the ones that are the immediately 
threat.
    We are going to help our allies because they are in our 
strategic interests. But the ones that are in immediate danger 
are those that are right around there. So we need to back out 
and say, look, you all got to do something, too.
    We are losing our lives. We put our lives on the line. We 
are ready to give you all the strategic help that you can get 
and I think that we should.
    The President was very clear--keep our special ops--and if 
we find that there is somebody over there from ISIL, that their 
organization and some of our allies cannot get to them, well, 
that is when we want to use that limited number that is in the 
AUMF so that they can go after those guys and absolutely 
destroy them.
    And I do think, you know, clearly, and I think that became 
more evident than ever that this is not a malicious group 
because if you see what they did to the Jordanian pilot that is 
so anti-Islam and if you see how they are acting that is so 
anti-Islam.
    These are thugs and terrorists, and so we have got to make 
sure that is out there with reference to delegitimizing their 
ideology and I think, you know, someone else said well, you 
know, they are--what they are doing with their PR folks maybe, 
you know, they are just asking us to come in.
    They want to us--because I think they do because they would 
love for us to have people on the ground on a continuous basis. 
Why? That is their best recruitment.
    If it was us on the ground and they can recruit more folks 
to fight against us because then they can say it is them 
against us and that is why we have got to resist that 
temptation because otherwise when people start to--we start to 
delegitimize their ideology then their recruitment will begin 
to rescind.
    Now, I happen to agree and I think, Dr. Rand, with your 
testimony because I think we have got to do a whole lot of 
things on a multilateral basis--diplomacy, you know, some 
military, some this--and it is not all about and mostly what I 
am hearing is military. We have got to do some other things.
    So let me just ask this question because I did agree with 
Dr. Rand in her opening statement. Ambassador Jeffrey, what was 
wrong with Dr. Rand's testimony this morning?
    Ambassador Jeffrey. Nothing at all. It was really good 
testimony and I agree with it. What I would say is, again, if 
we are getting back to strategic patience, if strategic 
patience means not making the mistakes of the last decade, I 
will sign up to strategic patience.
    If strategic patience, however, means--and it is not only 
this administration who has looked at it this way--that it 
means no casualties and no risk of casualties it means assuming 
that the people in the region not only have more at stake than 
us--that is a debatable thing--but assuming that they can carry 
a big part of the burden I don't see anything in our history.
    At the beginning of this meeting or hearing, Chairman Royce 
talked about us doing 85 percent of the strikes, I believe.
    I would say if you look at Libya 4 years ago, if you look 
at Bosnia, if you look at Kosovo where we had all of NATO, you 
will find--if you look at the Korean War other than the Koreans 
themselves you will find similar statistics for the last 70 
years.
    We can complain about that but that is how we have 
maintained international security. Where we have run into 
trouble and three times going into North Korean, Vietnam and 
Iraq have been, as you pointed out, we thought that we could do 
regime change and we could change populations.
    We are not going to do that but I don't think anybody up 
here today is suggesting that. What we are suggesting or at 
least two of us are that we be--at least consider if our 
military commanders and if our diplomats need it a more 
aggressive policy militarily but, as I said, a more aggressive 
set of diplomatic actions.
    Mr. Meeks. Let me just--Dr. Rand, what do you have to say?
    Ms. Rand. Sure. Just to clarify the testimony in my opening 
statement, I am not advocating for a more aggressive use of 
force than has been suggested by the AUMF text.
    I also look at the lessons learned from the past 10 years 
and the fight, particularly in Iraq. This is the 25th year that 
the U.S. is involved in some military combat operation in Iraq 
if you think about it--if you count all the operations in the 
1990s.
    And so it is quite remarkable that we are still talking 
about Iraq and we are still talking about the proper use of 
American force. There are two lessons learned, and I would 
agree with you, Congressman.
    The first one, in my mind, is don't make Americans part of 
the story. You know, you are not leading from behind. You are 
not taking a back seat role.
    But you don't want to insert our presence to change the 
dynamic and create an insurgency against American power. That 
was clear in the 2003-2004 situation.
    The second, and my colleagues have alluded to it, is the 
importance of the ISF being sustainable or the ISF peshmerga--
most of the ISF--the Iraqi Government and security forces need 
to be multi sectarian, professional and less susceptible to the 
penetration by outside actors like Iran, like the Shi'ite 
militias.
    That is the only way to sustain and protect Iraq as a 
sovereign country over the long term. You know, we have had the 
Sons of Iraq, the awakening.
    We have had problems with the Sunni region and its 
connectivity with central Baghdad. This is the second time, 
third time this has happened and so we need to create a force 
that will really think of itself as representing the security 
of all Iraqis and that will take time and that is part of the 
strategic issues.
    And that is what the trainers are doing, by the way, and it 
is better and more effective to train them with our Arab 
allies, which is what we are doing, and our European allies all 
over Iraq right now. We are training 12 new brigades, as you 
know. Thank you.
    Chairman Royce. Thank you. We go now to Mr. Rohrabacher of 
California, chairman of the Subcommittee on Europe, Eurasia, 
and Emerging Threats.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
want to thank the witnesses for coming here. We have--this is a 
discussion between us and the witnesses about what direction we 
should go and we appreciate your advice.
    Dr. Brennan, let me just note that I agree with your basic 
assessment that we are not just talking about ISIL or ISIS, 
whatever--which one we want to call it--that this actually is 
an enemy that has been 10 years or 15 years around us and its 
radical Islamic fanatic terrorism or groups that are willing to 
use terrorism to terrorize the Western world and this goes back 
all the way to even before 9/11 when we lost 3,000 Americans, 
murdered, to try to terrorize our country.
    So these groups, whether we call them ISIL or whether they 
are burning somebody to death there to try to say--show us how 
mean and nasty they are or whether they are trying to bring 
down buildings in New York, it is that--is the same enemy 
whether those--whatever they want to call their organization at 
whatever particular moment.
    So with this I would suggest that that is the primary 
threat that we face in the Western world faces today. That is 
our primary threat to our security and our safety and the 
United States needs to recognize that and figure out how we 
defeat these type of enemies.
    Let me just note that I personally will not and I don't--I 
can't speak for my colleagues but I don't believe that I will 
be giving the President of the United States and I don't think 
the Congress will give the President of the United States a 
blank check on the use of American military force in the Arab 
World or in the Gulf, wherever it is, and by the way it is 
maybe not specific enough, in the territory much less the 
timing of this.
    We are not going to give him a blank check for a given 
period of time. We need to know exactly--if that means that he 
would be willing to commit major forces on the ground or not 
that needs to be part of any agreement that we have.
    So I don't see this just, you know, being oh, the President 
is asking, thus he is going to get whatever he wants. We need 
to work it out--work out the details.
    I personally don't believe this is going to be settled by 
the military. When we eliminated the Soviet Union, which was 
then the ultimate threat to peace and stability in the world, 
it was done by not by deployment of large numbers of troops and 
we need to create a dynamic that will end with the defeat of 
this threat to Western civilization.
    We need to create that dynamic and that means what we did 
to defeat communism we made that our number-one goal and we 
worked with anybody who would work with us to defeat that goal 
and that made it, by the way, possible four us to defeat them 
without a conflict--direct military conflict with the United 
States.
    Let me just note that I think this President has not 
reached out--we have already heard about the Kurds and to other 
people and other groups in the world and especially in that 
region who should be our best friends and mobilize them in this 
effort whether it is General Sisi or whether it is the people 
who are fighting against the--who marched against radical Islam 
in Tehran where the President couldn't get himself to say 
anything about that in support of those kids earlier on.
    So we need to have that dynamic created rather than just 
having the President come to us and asking for military--for a 
military blank check, and the question I have--I know, I am--we 
are just about out of time here but let me just note this.
    I would like to ask about shouldn't we be working with 
Assad? We worked with Stalin to defeat Hitler. We had all sorts 
of questionable allies when we were going against the Soviet 
Union.
    Shouldn't we work with Assad? Shouldn't we be working with 
Putin in order to defeat this threat that you have capsulized 
for us of radical fanatic Islam? And that is my question to 
you, sir.
    Ms. Ros-Lehtinen. Thank you. The gentleman's time has 
expired.
    Mr. Rohrabacher. I ask unanimous consent that he be able to 
answer.
    Ms. Ros-Lehtinen. No objection.
    Mr. Brennan. I think we need to be able to talk to all the 
countries in the region. But I think if you go back to my 
earlier argument, Assad is actually a part of this broader 
Islamist movement that is supported by Tehran.
    So we have--we have in the Middle East today what is the 
equivalent of Sunni-Shi'a civil war that is taking place and at 
one level we need to determine which side of this we are on and 
how are we going to try to pull together these various 
countries in order to address the issue.
    You are absolutely right. It is a radical Islamist ideology 
writ large, Sunni and Shi'a. We have to--but we need a grand 
strategy for it. Military is just one component of that.
    But that is where we ought to be going and I think if there 
is one thing that comes out of this committee it could be a 
process of thinking about how do you move forward to confront 
this global threat to our interests, not just ISIS or one of 
the other groups.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Sires of New Jersey.
    Mr. Sires. Thank you, Madame Chair, and thank you very much 
for your service to the country and for being here.
    You know, every time I sit here and I hear witnesses talk 
to me about training the Iraqi army, it just gives me the 
shivers because of the experiences that we have had with this 
idea of training.
    I don't know where we get the confidence that if we train 
this army it is going to solve our problems because, you know, 
we have spent billions. When they took a shot at them then they 
ran.
    So to go back and start training people again and spending 
all that money, you know, I am just concerned that at the end 
of all this people are going to say the only people that can 
solve the problem is us putting troops on the ground and I 
would never vote for that.
    We lost 6,000 lives. We have countless people coming back. 
We have soldiers coming back committing suicide and for what? 
We solve one problem, one group--another one pops up. You know, 
I don't know the answer, obviously. You know, you are the 
experts. You know, I just take your word for it, you know, what 
you are saying.
    But I do agree with you that we should fund the Kurds and 
we should give them the weapons that they need, and I am 
wondering where--a few years ago President Biden said that 
maybe Iraq should be divided in three--I wonder how viable that 
is. I mean, all these groups--maybe it is not viable now but 
just seemed like an idea back then.
    And I am concerned about Jordan. You know, I am concerned 
about the impact that the refugees are having on the economy of 
Jordan and more and more people keep coming, and I am concerned 
are we doing enough to make sure that our friend, Jordan, is 
well prepared to deal with what they are dealing now.
    I mean, they have taken a big step. They have stepped 
forward. So maybe you can just comment a little bit.
    I don't know if some of the things that I may be wrong 
about. Training the Iraqis may be the only option but I got to 
tell you, it is hard for me to accept that.
    Ambassador Jeffrey. Good questions, Mr. Chairman. The Iraqi 
troops ran in Mosul. The Iraqi army did not really run in Anbar 
Province.
    Maliki pulled the troops out of Fallujah in January because 
of a political dispute and they rushed in and took over the 
police, who were in many cases much weaker than the military.
    The military--they have had some bad days in Anbar Province 
but they haven't upped and ran. My experience in a good number 
of laws on various levels including out there trying to train 
them is that you can train forces to do well.
    It helps a hell of a lot if you have American troops, 
advisory teams and American air power with them. The Vietnamese 
ran in 1972 when the North Vietnamese came in until we put in 
massive air strikes and we had our advisory teams out there 
fighting with them and the result was they turned the tide and 
pushed the North Vietnamese back.
    I have seen this also in Iraq in 2010-2011. Iraqi troops 
did well against hard core al-Qaeda but particularly when they 
had American advisory teams with them.
    So that is the first question. In terms of popping up, 
having been--spending much of my life since the 1974 Yom Kippur 
War where I was almost deployed to the region with a lot of 
other American troops I have a feeling of popping up too 
because it is what is--the history of my life over the last 40 
years is constantly being redeployed to the Middle East in one 
or another capacity.
    My take away from this is this is something we are not 
going to fix. We can provide multipliers to the people fixing 
it and the most important is assuring that really radical 
violent elements do not get a hold of large territories.
    That is the Iranians, that is ISIS, that is al-Qaeda, that 
is Assad. And to contain and beat back those forces so that the 
people of the region have the chance to eventually move on the 
way people in the Balkans, the way people in Central America 
and the way people in other places where we have been 
successful have moved on.
    But you are right. This is a long struggle and it is 
frustrating and because it is a long struggle we shouldn't tie 
a lot of troops down in a high casualty effort to fix this once 
and for all because we won't.
    Mr. Sires. How about Biden's idea then?
    Ambassador Jeffrey. I am sorry. He has recanted, first of 
all, and secondly, the problem with that is I know of no border 
in the Middle East and, frankly, no border in any area I have 
ever been stationed in the Balkans or elsewhere that you can 
just break up into three parts because there are overlapping 
groups living in those areas.
    There are overlapping historical memories and what these 
people will do is they won't agree to a piece of paper. They 
will fight, and it just creates evermore chaos. You change one 
border in the Middle East, they are all going to start being 
shaky and we will have yet another even bigger problem.
    Mr. Sires. Thank you. Thank you, Madame Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Sires.
    And now we turn to Mr. Salmon, and our deepest condolences 
to all of the residents of Arizona for Kayla.
    Mr. Salmon. Thank you very much. I really appreciate that.
    I guess my question is to anyone on the panel that would 
like to take a stab. But, Ambassador, I would really appreciate 
your thoughts first on it.
    Let me just say first, for the record, that I very much 
support a very robust AUMF being given to the President which 
gives maximum flexibility to our generals so that they can 
prosecute this effort until we win and we do it quickly--as 
quickly as possible.
    But the President and his advisors have been clear for the 
last several months anyway that they believe that they have 
full legal authority under the 2001 AUMF to prosecute ISIL.
    My question is why would the President be submitting to 
Congress or asking Congress to give him an AUMF that ties his 
hands. I have never heard of a President sending that kind of a 
request to Congress--please time my hands and give me a time 
limit and also, you know, limit my ability to use ground 
forces.
    I get really frustrated. I marvel, in fact. I can't imagine 
Franklin Delano Roosevelt standing up before the American 
people and saying here is the five things I am not going to do 
to the Japanese.
    It just doesn't make a lot of sense to telegraph what we 
are willing to do and what we are not willing to do and if the 
President believes that he has the authority, and I believe he 
has said that many times--some of his advisors--that he has the 
authority, why would he want a further limiting AUMF?
    Ambassador Jeffrey. Very quickly, so my colleagues can--he 
does have the authority under the existing legislation but it 
is an awkward fit and he is absolutely right to come back here 
and ask for more specific from all of you.
    In terms of why would he limit it, that is his philosophy 
and I have to be fair to him. I have worked for him. He doesn't 
think that military force can often be a solution and he thinks 
that we have gotten very committed, almost like a drug, to 
using military force rather than other means of national power.
    I disagree with him but it is an honest position. He can 
point to areas from marching into North Korea to Vietnam to 
Iraq that I and others have cited where we have gone astray and 
it is something to really worry about.
    But while I wouldn't support that position myself, I mean, 
I understand why he has it and a lot of Americans agree with 
him.
    Mr. Salmon. Let me just modify that, Dr. Brennan, before 
you do speak. I also believe that one of the reasons for the 
conflicts that you cited that we were not very successful is 
that the politicians micro managed the whole damn thing. Dr. 
Brennan?
    Mr. Brennan. I agree with Ambassador Jeffrey. We need to 
put something on the ground that is wide enough, that gives the 
President the ability to make the decision. He may choose he 
doesn't want to do that but--and that is a legitimate choice 
that he should make.
    But I think that if the issue is as I portrayed in my 
testimony--I think as the others have, I think that this is a 
great threat to U.S. national security.
    If it is a grave threat, as the President put in his AUMF, 
then we need to be giving the President everything that he 
needs and you don't know what is going to happen 6 months from 
now, and to have a complete going back and forth on this I 
think just ties his hands.
    And I agree with you, Congressman, that I think that it 
makes most sense to look back and perhaps the 2001 AUMF could 
be cleaned up or amended to provide the types of capability 
that are needed.
    It is not a perfect fit but whether or not we need to 
restrict the hands I would be very concerned about that as a 
commander as well as somebody who is trying to look about how 
the country moves forward on this.
    Mr. Salmon. I am going to run out of time and I do have one 
other question because I am deeply concerned that the 
administration isn't very serious about this fight.
    With only 250 coalition sorties flown a month versus the 
roughly 1,000 air strikes a day we flew in previous conflicts 
in the region, couldn't we do more with the air power that we 
have to at least degrade ISIL or ISIS and couldn't additional 
air power support further attack ISIS' impressive funding 
streams that they are using to support their caliphate?
    Mr. Brennan. I believe that we ought to be putting--having 
a much more robust air campaign. But to do that you need to 
have more targetable intelligence and you get that kind of 
targetable intelligence by having troops out forward with our 
allies.
    And without having that then I think that you run the risk 
of having collateral damage which will run counter to our 
policy, counter to our strategy and counter to the interests we 
have in Iraq.
    Mr. Salmon. So it gets back to the ground forces and the 
support again?
    Mr. Brennan. I believe so.
    Ms. Ros-Lehtinen. Thank you, Mr. Salmon.
    Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madame Chair.
    I just--you know, it amazes me in all of these hearings how 
quickly we just kind of bypass the fact that the United States 
paid about $25 billion to build up an Iraqi army and the first 
test of that army was against the Islamic State of Iraq and 
Syria, and they essentially ran.
    And we were told that the reason that they were not 
committed to the fight was because the previous prime minister, 
Nouri al-Maliki, was not inclusive of the Shi'a-Sunni 
population and therefore didn't feel as though it was a fight 
worth committing to.
    And now we are told that there is a new prime minister who 
is also a Shi'a but more inclusive of the Sunni community and 
therefore we should have confidence again in the Iraq national 
army.
    Twenty-five billion dollars, thousands of lives lost and no 
commitment. Who are the most effective fighters in Iraq today?
    The peshmerga--190,000--and the Shi'a militia. The new 
prime minister has said that there are about 1 million Shi'a 
militias who are trying to fill the void of the ineffectual 
Iraqi army.
    Mr. Brennan, you had said earlier--you talked about the 
Shi'a militias who recently experienced success against ISIS. 
You also made reference to Qasem Soleimani, the Iranian Quds 
Force's leader who really negotiated the second term of Nouri 
al-Maliki with one condition--that the Americans leave--that 
the Americans leave.
    And now we have a President who has a resolution before 
Congress asking for authorization to engage, again, militarily. 
You know, the Shi'a militias are not there to prop up the Iraqi 
Government.
    They are there to do what Soleimani and others in 
asymmetrical warfare try to do and that is create a proxy in 
places that they want to control be it in southern Lebanon, be 
it in Syria or be it in Iraq.
    My concern is that if we commit American forces, and there 
is no passive wing of the American military--everybody has 
weapons and everybody fights and they die courageously when 
they do--we are continuing a situation in this country that has 
been going on for way too long.
    You know, Tom Friedman, the author and New York Times 
columnist, once said is Iraq the way it is because Saddam was 
the way he is, or is Saddam the way he is because Iraq is the 
way it is. And I think it just speaks again to the sectarian 
tribal nature of a place that we are trying to impose a 
political solution to.
    You know, we are told that the American military with 
extraordinary courage, extraordinary commitment, extraordinary 
effectiveness, could only do one thing--create a breathing 
space within which the Shi'a, Sunni and Kurdish community could 
achieve political reconciliation including the sharing of oil 
revenues and we saw a hopeful sign in December that that was 
occurring between the central government in Baghdad and 
Kurdistan with the 17-percent sharing of the national revenues 
and also $1 billion to equip and train the peshmerga.
    But I will tell you, where our investment has been made 
financially, where our investment has been made morally, has 
been an abject failure and what we are proposing to do with 
this resolution by the President is continue that failed policy 
without any clarity about what it is we are going to achieve 
because when there is no political center--here is what we know 
in that part of the world--when there is no political center 
there are only sides to choose and right now there is no 
political center.
    And don't argue that the changing of a Shi'a prime minister 
in Iraq is going to fundamentally change the will and the 
commitment of the Iraqi national army.
    You know, let us just acknowledge that our investment of 
$25 billion in the Iraqi national army failed--failed 
miserably--because when you say they all ran, 250,000 of them, 
in the face of 30,000 ISIS fighters, well, certainly because 
Iraq is a majority Shi'a country, many of those fighters would 
be Shi'a. So at least they wouldn't run.
    So I don't know really what is going on here but I know 
where this is leading and I think most Americans know where 
this is leading, and it is not in a good place because, again, 
America is essentially going it alone for the third time in two 
different countries and unless there is a recognition of 
minority rights, unless there is a recognition of the 
pluralistic nature of Iraq, there will never be peace there 
and----
    Ms. Ros-Lehtinen. The gentleman's time has expired. Thank 
you, Mr. Higgins.
    Mr. Higgins. Yield back. Thank you.
    Ms. Ros-Lehtinen. Mr. Issa of California.
    Mr. Issa. Thank you, Madam Chair. You know, being this far 
down the dais is of some help because a lot of--a lot of good 
questions have been asked.
    One that I don't think really has been covered, because we 
are considering the authorization for use of military force, is 
sort of what we have and what we need, and let me just run 
through it quickly.
    In 2001, the AUMF basically said global war on terror, al-
Qaeda--go anywhere, get them. 2002, it was specifically Iraq--
liberate Iraq. I think it is fair to say that whether we like 
the way Iraq is or not, it has been liberated.
    Any new problem in Iraq very clearly is a new Iraq, and 
that is where I have some real challenges with the President's 
belief that he has any authority under the 2002. But leaving 
that aside, they are both obsolete.
    Al-Qaeda, as we knew it, is no longer al-Qaeda as we knew 
it. Would I get your agreement that as we defined it in 2001 it 
is really a different organization? Is that fair to say?
    And anything we do in Iraq and Syria and other areas in 
which derivative organizations including ISIL or Daesh is in 
fact at least fundamentally different or expanded and fits a 
slightly different definition. So we all agree on that part, I 
think.
    So let me--let me ask the broader question. Aren't we 
dealing with two ideological groups, both of whom are a threat 
to regional security, to democracy and to the West, to a 
certain extent? One of them, Daesh, is a radicalized derivative 
of what we once knew as al-Qaeda.
    The other, the Shi'a activist, whether it is Hezbollah, 
Tehran directly or various groups at any level, are ultimately 
a group that looks at the 12th Imam Mahdi--Muhammad Mahdi--and 
his proclamation of what you have to do which is more or less 
take the Holy Lands and bring back all the glory and peace.
    And I listened to the former President of Iran at the U.N. 
in 2012 and he may be crazy but that is what he was saying is 
the 12th Imam is going to bring this all back and it was a call 
for jihad for the Shi'a.
    Question, and I will start with Dr. Brennan but all of you 
can answer it, aren't we really dealing with the need to be 
targeted against both as appropriate and at the same time--and 
I will use Syria, an area that I have worked a little bit in, 
as the poster child--we have, if you will, the Mahdi 12th Imam 
crowd on one side backing Assad and then we have ISIL.
    Aren't we in a position in which we have to make sure that 
we give a nimble authority to the President but one in which he 
weighs the comparative balances, one in which he clearly does 
no harm to one group, however reprehensible, that simply 
advances the other?
    And isn't that really the Shi'a--and Doctor, this is why I 
want to go to you first--the Shi'a-Sunni conflict that we are 
now in the middle of? It is not just ISIL. It is not just 
Bashar Assad. It is not just Hezbollah.
    We have metastasized into a conflict in which in many cases 
we are fighting on one side and empowering our enemy on the 
other side. Doctor?
    Mr. Brennan. Congressman, I agree with your assessment on 
that. I think that as we are looking at the conflict between 
Sunni and Shi'a, we have to be--understand that this Islamist 
movement is a cancer that has evolved from--metastasized from 
various elements of Islam but it--and we need to go back and 
take a look at and reinforce those people who are really 
helping us.
    King Abdullah has made some courageous stands. You look at 
King--President al-Sisi in Egypt. This has got to be done 
through them and we have to be working politically to encourage 
them and all of our neighbors, all those neighbors that have 
been our allies for the last 10 years, 20 years, 30 years.
    So the Gulf States, Saudi Arabia--they need to change 
internally to stop what is going on but we can encourage them 
to do that.
    Mr. Issa. Okay. Let me narrow the question because I think 
you said it very well.
    Isn't the President's obligation with whatever authority we 
give him to work with those who will be forces for moderation 
or at least tolerance in the region and you mentioned President 
al-Sisi who has been disrespected by this administration in an 
amazing way.
    They were quick to recognize the Muslim Brotherhood and 
very slow to even call the President after he was legally 
elected in internationally recognized elections and, obviously, 
King Abdullah, as an example of a Sunni leader who is simply 
trying to bring back a moderate Sunni border to his near 
Jordan. But, quickly--I know my time has expired--this, for me, 
is the important part.
    I don't want to topple a Syria that Iran has power in to 
get at ISIL but I don't want to defeat Sunni extremists only to 
empower a Shi'a aspiration paid for out of a dictatorial Iran 
that since 1975--1979 has consistently managed to ruin country 
after country and continues doing so. So please----
    Ms. Ros-Lehtinen. Thank you, Mr. Issa.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chair. Thank you to the 
witnesses for your testimony and for your excellent written 
testimony as well. It was very helpful.
    I want to just build for a moment on the gentleman from New 
York's last questions. One of the things I am very concerned 
about is that I don't think we have a clear understanding of 
what the end game is or what success even looks like and I 
think it builds on what you are saying, Dr. Brennan, that it is 
more than just defeating and killing individuals who are 
members of a terrorist organization but it is really do we have 
the ability to kill an ideology--a radical Islamist terrorist 
ideology.
    So I think one of the things that I am struggling with is I 
have deep skepticism that continued or deepening military 
engagement is the solution and in fact real questions about 
whether it will in fact make it worse and more long term in 
part because of what you raised, Dr. Brennan, in your 
testimony.
    But if you think about the role of the Iraqi security 
forces and you think about the money that we have spent and now 
we have embarked on a training of the Syrian opposition--the 
so-called moderate Syrian opposition--how can we have 
confidence that there will be any different result and over 
what period of time?
    I mean, we are talking about beginning this training 
process now. Presumably, ISIS and ISIS fighters will not 
remain--you know, stand still while we sort of get up to speed.
    So how should we tell the American people that we should 
have any confidence after having spent $25 billion and training 
hundreds of thousands of Iraqi soldiers that somehow this time 
it is going to be different, that they are going to take up the 
fight. So that is my first question.
    My second question is that, you know, we talk a lot about 
the role of our international partners in this coalition and 
then we learn that 85 percent of the air strikes are by the 
U.S., and is it just impossible to imagine that the UAE and 
Saudi Arabia and Jordan and Egypt who are in the region will 
actually take on the responsibility, the chief responsibility, 
for this ground operation and for the air strikes?
    Do they just not have the capacity? Do they not have the 
interest because of the political context? But, you know, 
everyone seems to suggest it is going to require air strikes 
and ground operations to be successful, whatever that means, 
but nobody seems to have identified who the ground troops are 
and we talk about peshmerga, which is great, and they are doing 
a terrific job.
    But there are all these allies in the region who have real 
resources and real armies. Do they just--you know, I am 
interested in why they are not playing a greater role.
    So those are my first two questions. I have one more but I 
want to be sure you have time to respond to those two.
    Mr. Brennan. Just real quick on the last one you had. The 
reason the United States provides so much air support is 
because we have a capacity to do that.
    The other allies in the region, Jordan being one of the 
more--the stronger ones--has capacity but it is limited and I 
think what they are doing now is probably as much as they can.
    In terms of the ground forces, as the Ambassador commented 
earlier, each one of these countries has an Islamist problem in 
their own country and those armies that are there that they 
have are being used to maintain security in those countries.
    So they can deploy some but they still need to maintain 
security within their own borders and so that is a challenge 
for them.
    Ambassador Jeffrey. First of all, I have a lot of sympathy 
to what you have said because I have been out there and I have 
lived this. But it is not just in the Middle East.
    Again, since World War II, we have had conflict after 
conflict where the number of Saudis, the number of infantry 
companies on the ground, have been somewhere between 50 and 90 
percent American, where our allies often flee or leave behind 
their American equipment they were doing that, as I said, in 
June 1950 in South Korea and we have seen it ever since.
    We have also seen though, including in Korea, including in 
Vietnam--I have seen it with my own eyes--including in Iraq, I 
have seen it with my own eyes, where they turn around and go 
back.
    Often, we, including small numbers of we, can make and do 
make a difference. But there I will agree with Mr. Higgins. 
Particularly in the Middle East, in my 18 years counting Turkey 
that I served there I never felt one day that I was in a good 
place compared to even the rest of the world----
    Mr. Cicilline. Ambassador Jeffrey, I want to just give Dr. 
Rand a moment to also respond, please. Sorry to interrupt you.
    Ms. Rand. I would just finally add that these are two 
excellent, excellent questions, Congressman, and I think the 
answers are actually linked, right. What is different about 
this enterprise right now is actually the partners that are 
involved.
    So if you consider in November and the December the 
reformation of the Iraqi Government, these Arab neighbors were 
not at all interested in the formation of the Iraqi Government 
post-Saddam. They were not there. The Ambassador can attest to 
that.
    They in fact were distancing themselves from Iraq. They 
sent no Ambassadors. They had no Embassies. It was really 
unprecedented in some way that all the neighbors were quite 
involved unanimously in helping Prime Minister Abadi get 
started and adding political capital and that is--to me, none 
of this is particularly promising but that is a source of 
promise that suggests to me that there could be a chance for 
this new Iraqi Government that will be different than the 
mistakes of its predecessors. Thank you.
    Mr. Cicilline. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Brooks of Alabama.
    Mr. Brooks. Thank you, Madam Chairman.
    I want to follow up on some of the comments of my 
colleagues, David Cicilline of Rhode Island and Darrell Issa of 
California, and some of the responses plus some of the written 
testimony that we have had the benefit of.
    Dr. Brennan stated in a response to a question from Darrell 
Issa that the Islamic State has ``metastasized from various 
elements of Islam.'' Further, in Dr. Brennan's written 
testimony, I am going to read some quotes:

          ``While the threat is often portrayed as terrorism, 
        the true danger is the ideology that provides the logic 
        of extremism, violence and acts of inhumanity.''

    Next, another Dr. Brennan quote:

          ``While bin Laden has been killed, the ideology of 
        Salafi jihadism continues to spread and the global 
        threat posed by al-Qaeda, ISIS and affiliated groups is 
        greater than ever.''

    Next, again, from Dr. Brennan:

          ``While the tactic of terrorism is frequently the 
        immediate threat focused upon by political leaders, I 
        think it is critical to note that the ideology 
        underlying these actions seeks revolutionary change of 
        the existing political and social order.
          ``Thus, the strategic challenge of our generation 
        isn't one particular group of insurgents or terrorists. 
        It is the ideology that gives them cause. Defeating 
        this ideology will require the development of a grand 
        strategy that employs all elements of national power 
        and influence.''

    And then, finally, Dr. Rand--I am going to quote from her 
written remarks:

          ``ISIL's savage tactics are at the very core of its 
        ideology. While al-Qaeda justifies individual suicide 
        bombing attacks against civilians and civilian areas 
        through fatwas explaining the conditional necessity, 
        ISIL has adopted a new ideology, manipulating select 
        stories from Islamic history and modern jihadi texts to 
        redefine jihad and to generate a blanket justification 
        for violence including against women and children.''

    If we take these remarks of Dr. Rand and Dr. Brennan on 
face value, Dr. Brennan, can America permanently defeat the 
Islamic state and other Islamic terrorist organizations without 
also defeating the underlying ideology that attracts so many 
fighters to their cause?
    Mr. Brennan. The short answer to that is no. I mean, I 
think that what we find is that the--this is an ideology of 
revolution and during the late 20th century we had Marxism 
provided the ideology of revolution that went around the world. 
Today, this is it. We have to confront the ideology.
    Mr. Brooks. Dr. Rand, do you concur that the answer is no, 
that we have to defeat the ideology that breeds so many 
reinforcements to the Islamic state and other Islamic terrorist 
organizations?
    Ms. Rand. Certainly, Congressman, and we are. This is one 
of the nine pillars and the areas where the coalition is 
working on the counter radicalization countering violent 
extremism and what is promising in this regard is some of the--
our Arab partners are beginning and starting programs in their 
own countries to counter this ideology.
    Recently, in Egypt, for example, a fatwa was issued against 
some of the ISIS ideology. It was unprecedented, in fact. Thank 
you.
    Mr. Brooks. With respect to Ambassador Jeffrey, Dr. Brennan 
and Dr. Rand, how can America best conduct itself to defeat the 
underlying Islamic ideology of the Islamic state and its 
brethren, Islamic terrorist organizations? Whoever wants to 
answer.
    Ambassador Jeffrey. I will start. I agree with the problem. 
I would be very skeptical of the idea of we, the United States 
or the Western world, defeating a philosophical concept or 
distortion of a religion.
    That is a very tricky thing. The vast majority of Muslims 
around the world are not our enemies. They look at their 
religion differently than the Salafists and the ISIS people and 
the people around the----
    Mr. Brooks. Okay. I am not asking for kind of an overall 
picture of what is going on. I am asking for what has to be 
done to defeat it.
    Ambassador Jeffrey. Right.
    Mr. Brooks. I have limited time--40 seconds.
    Ambassador Jeffrey. Fair enough. Stop the military 
manifestations of it, which is what we are doing with ISIS, 
which is what we are trying to do with Iran on nuclear weapons, 
and give the people of the region the space and support those 
who are strong in fending off this threat among themselves. 
That is all we can do.
    Mr. Brooks. Dr. Brennan, a few seconds left. How do we 
defeat the ideology?
    Mr. Brennan. Continue to work with people like King 
Abdullah and President al-Sisi and develop that in other 
countries so that we have--the cure from this cancer comes from 
within Islam.
    Mr. Brooks. Dr. Rand, just a few seconds left. Any 
additional words?
    Ms. Rand. I would add that the people in the Sunni 
heartland across Iraq and Syria they are mostly tribes. They 
don't necessarily inherently subscribe to this ideology.
    So what we're trying to do is give them a chance. You know, 
they have been exploited too by the ISIS groups that are in 
their midst. So we are trying to help them.
    Mr. Brooks. Thank you, Madam Chairman, for the additional 
15 seconds.
    Ms. Ros-Lehtinen. Thank you, Mr. Brooks.
    Dr. Bera.
    Mr. Bera. Thank you, Madam Chairman, and thank the 
witnesses.
    Dr. Rand, was I correct in hearing you say we have been 
involved in 25 years of continuous engagement in Iraq?
    Ms. Rand. To clarify, on and off for 25 years. I was 
counting the time at the beginning of the Gulf War, you know, 
which is--we are coming on to the 25th anniversary of the 
invasion.
    Mr. Bera. Great. So on and off, and as we look at this 
current engagement it is accurate to say we are not talking 
about yours. We are talking about, you know, prolonged periods 
of times, perhaps decades. So no one disagrees with that.
    Dr. Brennan, in answer to my colleague from Rhode Island, 
Mr. Cicilline, when asked about who can provide the numbers of 
ground troops in order to maintain stability, to create that 
open space, I think you characterized it as, you know, our 
allies in the region have limited capabilities, limited ground 
troops, and those ground troops largely are tied up within 
their own countries. Is that an accurate assessment?
    Mr. Brennan. They are tied up but that doesn't mean that 
they can't provide some. What I think we have to have is 
reasonable expectations about what they can do based upon their 
own internal security interests.
    Mr. Bera. So in this larger debate, you know, much of the 
debate is, you know, what the United States involvement is, 
what our troops' involvement is and no one is discounting that, 
you know, ISIL is--these are monsters.
    These are despicable individuals. These are folks that are 
distorting a religion and we do have national security threats 
and we do have an interest in, you know, ridding the region of 
this ideology.
    But it is not going to be easy and it is going to be 
prolonged and it is going to take decades. And, you know, I--
you know, I disagree with my colleague, Mr. Salmon. I do think 
that it is our responsibility as Members of Congress to be 
engaged in defining the context of what this engagement looks 
like, not in prosecuting this--that is up to our military 
commanders, our diplomats and so forth--but engaging and I 
think the public wants us to be engaged in this definition. So 
I think that is a good thing.
    This is not going to be easy and there, clearly, is a 
scenario. I think, Ambassador Jeffrey, you talked about, you 
know, some of the bad guys here--Assad, Iran, others.
    But you can, clearly, see a scenario where you defeat ISIL, 
you drive them out, where you see this change from Iran to a 
Shi'a-dominated Iraq to Assad to Hezbollah to Hamas which, you 
know, we have to be conscious that that is one outcome here, 
which is not an outcome that I desire.
    I think it is an outcome that, you know, puts some of our 
closest allies in a very precarious position and maybe even 
creates a worse scenario in this. So as we, Members of 
Congress, engage in this debate we have to be very conscious of 
all possible scenarios.
    Ambassador Jeffrey, you touched on, you know, the lessons 
from Vietnam that, you know, I can imagine a ground campaign in 
Iraq with, you know, Shi'a militia, with Iraqi forces, with 
Kurdish fighters, a prolonged ground campaign that drives out 
Iraq. But the real challenge here is what happens in that 
bordering country, in Syria.
    You know, there isn't a moderate Syrian force that can, you 
know, cut off that line of retreat. That then draws us into 
another rabbit hole and another prolonged scenario.
    So, you know, I guess in the minute I have I think, 
starting with Dr. Rand, these scenarios that I am laying out 
are they inaccurate and the questions that we should be 
thinking about and asking?
    Ms. Rand. Sure. Obviously, none of this is clear and that 
outcomes are not predetermined. You know, this is a very 
difficult region.
    It is undergoing generational change in the form of the 
popular uprisings that have weakened state authority across the 
region.
    We don't need to get into here all of the factors that are 
making this an unprecedented moment in the region and, of 
course, there is dangerous potential.
    But, you know, the strategy is trying to figure out the 
political end game as I, you know, said in the written 
testimony in each of these particular feeders, and in Syria the 
idea of inserting a trained moderate opposition faction of 
5,000 fighters is smart because this is the type of fighters 
that we could ally with.
    These are the type of fighters that have a chance of 
reclaiming the territory once ISIS has been weakened in the 
areas.
    Mr. Bera. But it will--it will take time. It will take time 
to train, to equip, to create this capable fighting force. 
Ambassador Jeffrey, and again, as I am thinking about this am I 
not laying--you know, am I thinking about this in the correct 
context?
    Ms. Ros-Lehtinen. Thank you, Dr. Bera, but your time is 
going to be limited.
    Mr. Perry of Pennsylvania.
    Mr. Perry. Thank you, Madam Chair.
    I would like to thank the panel for your service. Dr. 
Brennan, an additional thanks to you for your time in uniform.
    I would like to associate myself with my colleagues Issa, 
Brooks and Higgins and their remarks, and just before I get 
started, regarding the contention that none of what we have 
tried in this arena has worked in the past and we tried to 
provide the breathing space, I think you must acknowledge that 
America was providing the support for the breathing space. Of 
course, it is not going to work when you walk away and no 
longer provide the support.
    That having been said, to Dr. Brennan I think we have 
already agreed that, I think, ISIS--you know, we have agreed 
that ISIS is a symptom of a portion of--you know, a portion of 
a larger challenge.
    Would you agree with that? I mean, I think you have said 
that before but I just want to clarify.
    Mr. Brennan. I would.
    Mr. Perry. All right. And you said that it should be the 
first priority. I mean, you particularly said that.
    Would it be fair for me to characterize--I think everybody 
is looking for a way to characterize it as a global violent 
jihad movement. Could that be a way of characterizing it?
    Mr. Brennan. I think it is, but I think when you do that 
you also need to ensure that it addresses both sides of the 
equation.
    Mr. Perry. Sure. Sure. Absolutely. I mean, we also have 
kind of acknowledged that we are in the middle of a Shi'a-Sunni 
civil war, wahabiism, Sharia dogma. But let me ask you this. I 
mean, they fight each other.
    They hate each other on occasion, what have you, but they 
see us, the West--the United States--as a common enemy where 
they will get together and fight us. Is that true or not true?
    Mr. Brennan. I think if we are there in a large capacity 
that we will attract those forces who attack us. We had that 
situation in Iraq where we were both being attacked by the 
Shi'a extremists----
    Mr. Perry. But even if we are not there in large forces, I 
mean, they travel the globe looking for us and the West.
    Mr. Brennan. We don't need to do anything for them to 
attack us.
    Mr. Perry. Right. We have already proven that, right? I 
mean, yeah. And people that say we have incited this and caused 
it I think that is a little specious.
    Further, Dr. Brennan, the--you know we have already kind of 
broached the question the AUMF, why now, Article 2 powers, the 
first AUMF and, you know, I look at the administration's track 
record--look at it from a Member of Congress' standpoint.
    Libya, Syria, Yemen, the side they chose in Egypt, what has 
happened in Iraq. We declare, he prosecutes. In my mind, he 
hasn't prosecuted very well. No disrespect intended but I just 
went down through the list.
    Is there some rationale to thinking that the President 
might be looking for a complicitor in what has been in many 
people's minds a failed, an ineffective policy, strategy? I 
don't want to call it a strategy because I don't--a plan, an 
execution is something. I don't really see a strategy.
    But we are going to get to that quickly. Is it--that a fair 
rationale? I mean, I am not saying it is not the end result but 
is it reasonable to think that people could feel that way?
    Mr. Brennan. And not going to the motivation of the 
President----
    Mr. Perry. Sure.
    Mr. Brennan [continuing]. I think it is fair to say that he 
is looking to have Congress as a participant in this process.
    Mr. Perry. Agreed. Can I stop you there, if I could? 
Ambassador, I agree with you that military force is not the 
only answer. You know, tediously, I am a student of Clausewitz. 
It is an extension of diplomacy.
    That having been said, what about and where is the proper 
place for the associated actors here, here in this country and 
abroad, that enable, that fund, that support through fighters 
and material how should they be dealt with in an AUMF and if 
not where?
    Ambassador Jeffrey. You mean the people who are supporting 
the ISIS movement?
    Mr. Perry. The people that support the global jihadist 
movement.
    Ambassador Jeffrey. I think that the----
    Mr. Perry. And the organizations that have vowed publicly, 
that we let walk around among us, that we have in this building 
and down the street? What about them? Where do we deal with 
them if we are in this fight committed to winning and where is 
that in the strategy?
    Ambassador Jeffrey. It is in the strategy, as my colleague 
pointed out. It is actually a nine-track strategy which 
internationally is a five-track strategy. But it is actually--
it includes all of that.
    The problem is some of this is political. Some of it is 
legal. For example, pursuing a lot of these people requires 
American laws and judicial action.
    Mr. Perry. With all due respect, so we have a couple 
hundred maybe or more unindicted co-conspirators in the Holy 
Land Foundation trial. They are walking around among us here 
and if you say this is a strategy that includes going after 
these people and deal--and that American laws are stopping us, 
there is one person that is stopping us.
    It is the attorney general because he refuses to prosecute 
them. How do we feel--how do you explain to me that this is an 
authorization without a strategy--that strategy is an 
aspirational goal of defeating the enemy? That is it, because 
in reality we are not really going to do the hard things that 
need to be done.
    Ambassador Jeffrey. I think the Congressional Record of 
Declarations of War and things like Declarations of War 
including this one have not tried to expand into these very 
complicated ideological, legal and other things but rather 
authorize the use of military force as part of that strategy. 
You need an explanation of that strategy.
    You need an explanation of why those people have not been 
arrested and what we are doing about them as part of your 
analysis of our whole process here. But I wouldn't stick it in 
the legislation.
    Mr. Perry. Appreciate your thoughts.
    Chairman Royce. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair, and thank you to the 
panel.
    And let me just start. There are many folks on this panel 
who served our country. I want to thank them and those of you 
who have.
    I come from a little different perspective because I have a 
son who I saw go to two wars. Sorry if I babble or get 
emotional. But I want to just say that I am lucky he came home 
safely.
    I cannot tell you how horrific it was for his family. I 
don't even--so when I went to--and I think of the families who 
lost their children, their loved ones--the morbidity of the 
thousands of soldiers who returned and then we have to say what 
for.
    So for me to make a decision of whether to send someone 
else's child into harm's way is, I think, the biggest decision 
or most important one that I will make in Congress. And I feel 
like we have been given this huge jigsaw puzzle where the 
pieces do not fit and my colleagues today have made a lot of--
asked a lot of good questions, a lot of comments.
    I can't repeat all of them but I have a number that I would 
ask you. You can just pick which ones you want to answer. I 
feel like we are in conflict all over the world and we have to 
have some strategy.
    What is the most important enemy to be focused on? We are 
trying to prevent Iran from getting a nuclear weapon. 
Obviously, they are a player against ISIL.
    We are trying to weaken Russia. Obviously, they are a 
player with Assad. That is just two examples. You have 
identified that we have to go after al-Qaeda as well. How does 
the--what we--the past AUMFs affect that and repealing that?
    What about--is military action the only thing? I mean, how 
does humanitarian aid fit into this or educating women? I mean, 
is this the only way out and where does it leave us?
    Who fills the void if we get ISIL? I mean, I could ask a 
lot more questions. So start with those and go at it.
    Ambassador Jeffrey. While I criticized it earlier, the 
President's national security strategy does talk about that and 
it does a pretty good job and, you know, while I am a doom and 
gloom buy because that is where I have been deployed for many 
years, I will have to say this is a much safer better world now 
than it was when I started in this business as an army 
lieutenant in 1969 and that is largely because of the United 
States, the executive branch, the congressional support and the 
American people and what we have done.
    So we--even though it is a jigsaw we don't like working in 
this jigsaw any more than you do observing it. We wish we could 
give you a clean sensible way forward and we are painfully 
aware we are not.
    But that is how we have lived with and what we have seen in 
our lives--in my case, over almost 50 years now. We have seen a 
lot of progress and we have seen that smart use of military 
force with all of the other things you said combined, working 
with allies, actually does work.
    We usually don't have the end game spelled out because we 
never know. We didn't have it spelled out with communism. We 
thought that we would contain it, push it back, go against it 
and hope for the best and it worked out.
    That is about all I can tell you. But I am pretty 
optimistic in the long run. But I share your frustration at the 
jigsaw.
    Ms. Rand. I agree about the complexity, Congresswoman, and 
I think you raise a lot of good--I like the image of a jigsaw 
puzzle. I think that is apt.
    I would just offer that in this particular AUMF and that 
ISIS threat, in some ways there are three different theaters. I 
alluded to them before and it is helpful to me to think about 
them in terms of the partners and the objectives in Iraq, which 
differs significantly from Syria, which is much more 
complicated than Iraq in some ways--in many ways.
    And then, finally, the third, which is the global 
contestation of ideas where there is a marketplace of ideas and 
change and social movements and Twitter and all kinds of youth 
bulges all over the world, not just the Arab world, that are 
leading to some of the radicalization causes so that the tools 
of U.S. statecraft need to be refined and specific to each of 
these three domains where our partners will be different, where 
our foes will be different, where the patrons of other foes 
will be different, et cetera.
    Mr. Brennan. I would just add that it is a jigsaw puzzle. 
It is a very complex issue. But I think that that leads back to 
a piece I put in the paper, which is that we need to be 
thinking about how do you develop a grand strategy that moves 
us for the next 30 years as we address this issue.
    I mean, we have the strategy of containment that came out 
of NSC-68 and the work of George Kennan and others.
    We need to be doing that same type of thinking about this 
current world that we are in, how do we--how do we carry this 
forward using all elements, not just the military. The military 
is just one piece of the pie.
    Chairman Royce. Okay. We go now to Mr. Reid Ribble of 
Wisconsin.
    Mr. Ribble. Thank you, Mr. Chairman.
    This has been really an insightful hearing and I thank all 
three of you for being here.
    I would like to start with Dr. Brennan. We have heard from 
some of our colleagues here today that almost an implicit idea 
that we should just leave this to the region.
    If we leave this fight to take care of ISIS to our regional 
partners and we just kind of step back out of it, one, what do 
you think would happen as a result of that strategy and would 
the U.S. homeland be put at risk implementing that strategy?
    Mr. Brennan. Thanks for the question, Congressman. I think 
that since President Carter the United States has taken on the 
responsibility being the guarantor of regional security in that 
part of the world and we have vital interests both with our 
partners as well as in Europe and our own economy that are at 
stake here.
    If we pull out it will create a huge power vacuum that will 
be filled by these very organizations that we wish to stop, so 
I think that would be the exact worst thing to do.
    And the perception, unfortunately, from withdrawal of U.S. 
forces in 2011 by many of our partners in the region is that we 
are disengaging from the region.
    We have to convince them that that is not true. Part of the 
way of doing that is by being more active in what we are doing 
in Iraq, showing that we are a commitment, the argument I made 
on putting troops on the ground, unless you put troops on the 
ground you aren't showing commitment or resolve and I think if 
nothing else that is one of the big benefits we will get out of 
this.
    Mr. Ribble. Thank you.
    Ambassador Jeffrey, in your written testimony in the second 
paragraph you talked about the campaign with our coalition 
partners and its strategy and I am going to quote out of here: 
``Building up political capacity with our partners in Iraq and 
Syria'' is one thing you wrote, and then you wrote, 
``Combatting the violent extremist ideology that fuels ISIS.''
    Could you give us some specific ways that our partners 
along with the United States are combatting the violent 
extremist ideology and also could you tell us how successful 
our political capacity efforts in Syria are?
    Ambassador Jeffrey. To start with the latter, they are not 
very successful. We don't have a good argument for the Sunni 
Arabs who are fighting against the Assad regime and 
simultaneously against the ISIS people, and our long-term 
program just to train a few thousand people is not an answer. 
What is our long-term vision of Syria?
    We have a long-term vision for Iraq. I mean, I can spell it 
out. It is not too different than it has been since 2003 and it 
is sometimes \1/2\, \1/3\, 60 percent there.
    That is a unified Iraq with the three groups living in 
something approaching harmony and the people we are supporting 
in Iraq including Prime Minister Abadi, the Kurds, many of 
these Sunni tribes, many of the other Sunni politicians I know, 
are working together to some degree better than in the recent 
past, certainly, and they are all opposed to this kind of 
violent extreme perversion of religion that we see in ISIS and 
that we see in Qom and Iran and they are our allies.
    But they need a lot of support because if we did just walk 
away the bad guys win, as Dr. Brennan said.
    Mr. Ribble. Is there a specific strategy, though, that you 
can use to combat the extremist ideology or is this just kind 
of flowery language that ended up in a strategy statement 
because it sounds good?
    Ambassador Jeffrey. It is kind of like, only even more 
complicated, how did we--how did we respond to communism. 
There, that was different because it was an alternative vision 
of how we should live.
    This is how these people should live and what they should 
draw from their religion. The basic--the first thing is fight 
those people who are coming out after us and coming out after 
the moderates.
    Secondly, make it clear that this is not a war against 
Islam. We are not trying to take anybody's territory. We want 
to live in peace with the 1.4 billion Muslims around the world 
and support people who understand and get that--support them 
politically, support it through our propaganda, by our words, 
support it through our economic assistance and our diplomacy, 
and I think that this will work.
    Mr. Ribble. Thank you.
    Dr. Rand, a question specifically for you. You seem fairly 
supportive of the President's language in the AUMF. Why would 
it necessarily be bad for Congress to give broader authority 
than the President is even asking because he then would still 
have the ability to choose to restrain himself or not? Why is 
that a bad idea?
    Ms. Rand. The AUMF is filling a lot of roles and we have 
talked about a lot of them today.
    Mr. Ribble. Could you please move that closer to you so we 
can hear you?
    Ms. Rand. The AUMF is serving a lot of roles and we have 
talked about a lot of them today, policy and legal. We haven't 
really hit on one of them, which is the legitimizing role it is 
playing and the message it is sending to our partners in this 
coalition and to the people in the region.
    So there--enter the American public, which, by the way, 
public opinion shows--public opinion polls show are majority 
opposed to more extensive use of ground forces in this fight. 
So I think it hits the right target.
    It balances between the need to send the message that we 
are not going to re-enter, re-engage the same kind of 
engagement boots on the ground that we have had for the past 10 
years. It was deeply unpopular at home here in the United 
States and in the region.
    Mr. Ribble. Mr. Chairman, I yield back.
    Chairman Royce. Thank you. We go now to Mr. Gerry Connolly 
of Virginia.
    Mr. Connolly. Thank you. Thank you, Mr. Chairman, and 
welcome to the panel.
    By the way, Ambassador Jeffrey, where are you from 
originally?
    Ambassador Jeffrey. Just north of Boston.
    Mr. Connolly. Where?
    Ambassador Jeffrey. Saugus.
    Mr. Connolly. Okay. I am from Boston.
    Ambassador Jeffrey. Okay.
    Mr. Connolly. Thought I heard something similar. All right.
    Dr. Brennan, I want to make sure I understood what you were 
saying about boots on the ground. Where and how many?
    Mr. Brennan. What I have suggested that we would be able to 
do is----
    Mr. Connolly. And, again, if you could pull the microphone 
closer. Thank you.
    Mr. Brennan. What I have suggested----
    Mr. Connolly. Perfect.
    Mr. Brennan [continuing]. Is that the commanders on the 
field be allowed to have the types of capabilities that they 
need. I think----
    Mr. Connolly. Which--I am sorry--which field are we talking 
about?
    Mr. Brennan. I am talking--we are talking about Iraq today.
    Mr. Connolly. Okay.
    Mr. Brennan. And I believe what we need is to put--have a 
greater advise, train and assist role. We need to be able to 
put special operations forces down at the tactical level with 
our allied forces using A Teams and B Teams like they were 
meant to be used.
    We may need to put supporting elements that are out there. 
In my view, we are probably looking at a package of somewhere 
between 5,000 and 8,000 troops. But, again, that is kind of a 
general range.
    But the bigger issue is that is today, based on today's 
situations and conditions. As we get into the situation of 
having to take back Mosul, there might be a different need and 
different determination as necessary for that mission and I 
think the commanders need to be able to have the flexibility to 
come back and say this is what we need for success.
    Mr. Connolly. Okay. Gotcha. Thank you so much. And just a 
real quick question for you and then I want to go to Dr. 
Jeffrey, and do you agree that an AUMF is in order, holding in 
abeyance what should be in it and what shouldn't, but that the 
President is correct to seek one and we are correct to 
authorize one?
    Mr. Brennan. I think it is very useful to go through this 
discussion and have this debate in terms of whether or not to 
deploy forces and if so how they should be utilized.
    Mr. Connolly. Thank you.
    Ambassador Jeffrey, I heard you say, you know, we want to 
send the message to 1.4 billion Muslims around the world that 
we are on your side, this is, you know, not an adversarial 
relationship, there are some bad apples and let us all work 
together, Muslim and non-Muslim alike, to deal with the 
barbaric violence being perpetrated and the insanity being 
perpetrated by this group ISIS, and that certainly sounds good 
to an American audience.
    But aren't we somewhat unwittingly the handmaidens of the 
creation of ISIS in that we so long supported the al-Maliki 
government that was perceived as absolutely hostile by the 
Sunni majority and in fact that hostility even today continues 
to fuel support even with the barbarity of ISIS and the 
violence of ISIS in the Sunni population because they are 
looking at what are my choices.
    They are not looking at the nuance of the violence. They 
are looking at where do I throw my lot--where is my future and 
the choice is a hostile Shi'a government that absolutely is 
seeking to exclude me, if not worse, versus at least a Sunni 
group that is fighting on my behalf, allegedly, however violent 
it may be.
    I am not justifying that but isn't that really what is 
going on in terms of what is fueling ISIS?
    Ambassador Jeffrey. You are right, that is--that is how a 
lot of Sunnis think both about the Maliki government and about 
us. It is how the Muslim Brothers think about us in Egypt.
    It is how, ironically, much of the Egyptian military who 
threw them out think about us. That is the problem and it is 
centered in your phrase supporting them.
    We, and we means American Foreign Service Officers 
specifically as well as the administration and a lot of the 
pundits in the media, have given the impression that we 
actually make or break governments.
    We really have very little control over them in the Middle 
East. The Iraqi people overwhelmingly voted for either a Shi'a 
party, a Shi'a coalition that Maliki was basically the head of, 
or a Kurdish coalition that for its own reasons in the end 
wanted to form a coalition with that Shi'a coalition.
    That led to Maliki being in power. It was a democratic 
legally done thing. Although people argue about it, it is about 
as democratic and legal as anything gets in the Middle East.
    The question is were we going to withdraw our support, 
overthrow it? How were we going to do that? I didn't have an 
answer and I was there. I tried as long as I could to find 
alternative candidates to--I was, to the extent I could, 
getting involved in the internal machinations of that society 
because we all saw problems with Maliki.
    But we have Malikis all over the Middle East that we have 
to do business with because there are even worse people out 
there.
    Mr. Connolly. Well, and just to end on the note, you make a 
very good point. There is this assumption in large chunks of 
the world that we are somehow omnipotent and we most certainly 
are not.
    Thank you.
    Chairman Royce. We go to Mr. Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman.
    I believe personally that it is good that the President has 
brought an authorization for the use of force against ISIS. My 
litmus test is going to be very simple--are we doing absolutely 
everything in our power to ensure that we win. I have some 
questions and concerns.
    The President, in his original strategy back in September 
when he gave a speech, he was talking about dropping bombs and 
a reliance on Iraqi military and law enforcement to finish the 
job.
    When I was in Iraq in 2006, it was an accomplishment to get 
them to show up to work. Expecting no threat that day, to get 
them to show up to a precinct that is a quarter mile from their 
house we were trying to get them to show up.
    So relying on elements on the ground who have no morale, no 
patriotism, they don't have the resources, they don't have the 
training, they don't have the will is something that we have to 
take into account.
    In that speech, the President said this was going to be 
different than past wars in Iraq and Afghanistan because there 
will be no boots on the ground, and in the same exact speech he 
says, tonight I am announcing I am sending 495 additional 
troops to Iraq.
    Someone shows me a picture of their grandson in the Air 
Force. He is in Baghdad. He is wearing the uniform. He is 
carrying a rifle. He is wearing boots. Those boots are on the 
ground.
    The use of this term ``boots on the ground'' here in 
Washington--the reality is is that we have boots on the ground 
right now and I think that we need to not worry about what 
polls say what wording sounds the best.
    We also have to understand that we have some of the 
greatest special operation forces in the entire world. We have 
the best special operation forces in the entire world--Army 
Rangers, Green Berets, Navy SEALS, Marines, Delta Force.
    When we talk about boots on the ground we are not talking 
about an enduring occupation. No one is talking about that. I 
don't support that.
    But I will tell you what I do want--for a member of ISIS to 
sleep with one eye open because they fear an Army Ranger may be 
visiting their house or their fellow terrorist's house to put a 
round of lead between their eyes. We have to cut off logistics, 
command and control.
    We have to find their funding streams and figure out how to 
cut them out. We need to increase our intelligence gathering 
abilities. These are all critically important. American 
exceptionalism isn't about strategic patience right now. 
American exceptionalism is about instilling fear in an element 
that does not respect weakness. They only respect strength.
    Understanding that if we wait 5 years what we are going to 
be up against is going to be 100 times greater than what it is 
right now. I want to support the President's use of force.
    I also want to do my due diligence. I want to know how many 
troops, which troops, what are their missions, who is in 
charge. Are they going to be given the flexibility and 
resources that are necessary to accomplish the task?
    The President talks about necessary and appropriate in his 
resolution. What, to him, is necessary and appropriate? I'm 
going to read a letter that I just received, with my remaining 
time. I received this letter from someone who is watching. So 
there are people at home who watch these hearings.
    He says,

          ``Lee, as a parent of a lieutenant in the Marines I 
        have no doubt that if deployed he will do his duty with 
        valor and distinction. However, unless, one, the 
        President can specifically articulate our goals, two, 
        the President explains the strategy specifically 
        designed to achieve those goals and those goals include 
        the utter destruction of ISIS wherever they function, 
        and three, our troops are given whatever they need for 
        however they long--however long they need it without 
        limitation both as to weapons and tactics, I request 
        that you vote against the authorization.
          ``The document as drafted appears to me to be an 
        attempt to codify a failed strategy of limiting our 
        ability to prevail. It is a political document which 
        allows the President to say he cannot do more because 
        Congress will not let him.
          ``He knows his strategy is failing and he needs 
        someone else to blame. I will be damned if my son is 
        going to be asked to risk his life for a failed 
        strategy simply to allow the President to avoid the 
        consequences of his incompetence. War is an all or 
        nothing thing.
          ``Either authorize the full force, political, 
        military and economic of the United States or do not 
        send our troops in harm's way. We must fight to win or 
        not fight at all.''

    Our military has been outstretched. Lives have been lost. 
Limbs have been lost. Missed birthdays, missed anniversaries, 
missed holidays. We are not looking for conflict but conflict 
has found us and it is time for us to defeat ISIS.
    We can't half ass it. We need to go all out and get the job 
done or not send our troops at all into harm's way. I yield 
back my time.
    Chairman Royce. We go now to Ms. Grace Meng of New York.
    Ms. Meng. Thank you, Mr. Chairman.
    Thank you, Ranking Member Engel, and for all of our 
honorable witnesses for being here today.
    I sort of want to piggy back off of what Mr. Ribble had 
previously asked about what coalition members should be 
prepared to do to continue delegitimizing ISIS' ideology. For 
example, a recent report indicated that around 4,000 foreign 
fighters have joined ISIS since the air strikes began.
    Are there specific strategies that coalition members should 
be employing to further prevent the flow of foreign fighters 
into Syria and Iraq? And part two of that question is often 
talked about. ISIS calls themselves an Islamic state.
    What name might you suggest we in America and around the 
world and in the media use to describe this barbaric group so 
as not to confer any undue sense of legitimacy? And anyone 
can----
    Ms. Rand. Those are excellent questions, Congresswoman, and 
I would just add that I will defer the second one to my 
colleagues but the first one it is very interesting the types 
of political capital that is needed to be invested by leaders 
in the Arab Muslim world to fight--to counter radicalization, 
counter ideology.
    Some of the examples I mentioned earlier were the leaders 
in Saudi Arabia and Egypt have helped their clerics issue 
fatwas condemning ISIS' violence, which is unprecedented.
    There is also the importance of social media and the United 
States Government is not the only government that has the 
technical capacity to sort of tweet against ISIS. In fact, this 
is one sort of less reported part of the technical capacity 
building that is being done is we are helping our coalition 
governments build these anti-social media Web sites, et cetera.
    It is a small thing but it is an important thing, given the 
percentage of the youth who are being radicalized in many of 
these societies. On the foreign fighters, my understanding is 
that the foreign fighters flowing into Syria and Iraq has been 
slowed in the past 3 or 4 months based on a couple of factors.
    One is Turkey. We have increased our diplomacy or the 
coalition has increased its diplomacy in technical capacity 
building efforts with Turkey, and Turkey has improved its 
border security processes. So there is a lot of this that is 
technical that you need to do with partners.
    It is better if it is done in a coalition so it is not just 
the United States telling people how to do better border 
security, how to fight foreign fighters.
    And finally, I will just mention the U.N. Security Council 
resolution that the President introduced in September that was 
basically condemning and urging all member states to stop the 
flow of foreign fighters.
    Mr. Brennan. Let me just go back to your question on the 
name.
    I think we should join our friends--our Arab friends in the 
region and start calling them Daesh. They are not the Islamic 
state. They do not represent Islam.
    They are an offshoot of that religion but they do not 
represent it and I think that we should--that would be a good 
way for us both in government and academia and others to try 
and show solidarity with our Arab allies.
    But defeating the ideology goes back to talking--working 
with those leaders in those countries, helping them, supporting 
them, giving them the type of support that they need in the 
case of Iraq, and Iraq has a lot of problems and I am not 
certain where it is going to go.
    Half the time I think it is going to survive and the other 
half I think it is going to fracture. But the reality is that 
we have invested $1 trillion and 1 million man years of labor 
and that there is a possibility that this may be saved, and I 
think if that is the case that we should continue to work on it 
and while--let me just go--take us just a little bit off for a 
second.
    We missed a great opportunity in 2006 when the Maliki 
government needed us the most and didn't--and we did not push 
for reconciliation. I think at this point in time when the 
Iraqi Government needs us that a part of strategy has got to be 
and our support for them has got to be honest to goodness 
reconciliation that is not going to walk away from them as soon 
as the problem is over.
    Ms. Meng. Thank you. And I will try to ask my last question 
fast.
    Secretary Kerry previously testified that the U.S. would be 
resupplying the Iraqi Kurdish peshmerga going through Baghdad 
as so not to undermine the central government.
    Has this arrangement prevented the Kurdish peshmerga from 
getting what they need to effectively fight ISIS and how would 
the central government in Baghdad view an effort to provide 
military equipment directly to the Kurds?
    Ambassador Jeffrey. It did prevent the transfer of 
equipment when I was Ambassador. I don't have the statistics 
now but the Kurds certainly believe that it has.
    They cite, as we heard earlier, only 25 of hundreds of MRAP 
armored vehicles that have been provided to them and while 
there are some pretty good reasons why we are careful in what 
we give them the point is they are fighting.
    They are the allies of Baghdad and a lot of these weapon 
systems are no threat to Baghdad but they are a threat to ISIS 
and they should be flowing.
    Chairman Royce. We will go now to Mr. Tom Emmer of 
Minnesota.
    Mr. Emmer. Thank you, Mr. Chair, and I will try to be 
brief. I apologize for going back and forth. There seem to be a 
whole bunch of things going on at the same time, and I don't 
want to cover old ground but I am afraid I might touch a little 
bit.
    My understanding, first, we are here because the President 
has requested renewed authorization for military force and it 
seems everything that I have read and everything that I have 
been listening to including your testimony everybody agrees 
that ISIL must be defeated.
    There seems to be absolutely no disagreement. I heard today 
and I think this is for you, Dr. Brennan, if you would, and the 
others can certainly expand on it, you must first start by 
stopping the military manifestations and we have had reference 
to you have got to cut off the revenue sources, you have got 
to--I just wrote another one down listening to the testimony--
we have got the ability to interrupt or interfere with 
Internet, social media, the like.
    I would love to know to the extent this new authorization 
of military force, is that something that the administration is 
planning on doing on every level and how are we going to know 
what the strategy is?
    Because I will tell you, I agree with my colleague, Mr. 
Zeldin from New York. I would offer that the executive should 
have all the authority that he needs to make sure that whatever 
the situation is, as fluid as it may be, you can deploy 
whatever resources are necessary to take the action that is 
necessary to win, not just hold something at bay, because--and 
I guess I will add this for the Ambassador.
    I thought I heard you say earlier that we have never 
ventured into--that our country has never ventured into 
combating such a complex ideology, and all that came to mind 
was fascism and Marxism, and I would just ask you to help me 
with that because you have got that background. So, Dr. 
Brennan, could you fill us in? What needs to be done?
    Mr. Brennan. I think the first thing that we need to do, 
and I think the President is doing this correct, is this is an 
Iraq first issue. How do you defeat ISIL--ISIS in Iraq? Do you 
go after their finances to the extent we can?
    Much more complex than it was when we were there earlier 
because they now have $2 billion and they have their own 
revenue stream. But you use the Internet, the social media. You 
attack the ideology----
    Mr. Emmer. Continue the air strikes?
    Mr. Brennan. Enhance air strikes. I think we need to do 
much more in the way that we have been doing and but that will 
require, again, back to my point, you got to put boots on the 
ground, our forces with those forward leaning elements, not 
necessarily do the direct fighting but to be able to reach back 
and pull the resources of the U.S. Government.
    I mean, one of the things on the AUMF that said the 
President was going to use our unique capabilities and I read 
that as being air enabled, and I got to tell you that U.S. 
ground forces capabilities, whether it be special forces, 
conventional forces or Army or Marine, are unique because it is 
not that one individual that you put out there.
    It is that joint capacity that you bring to the 
battlefield, and that if we are going to make certain that our 
allies are going to be successful we got to be out there with 
them.
    Mr. Emmer. So my question then, Dr. Brennan, because we are 
so limited on time, is if Congress is going to authorize the 
additional military force that the executive is asking for, why 
wouldn't Congress authorize the executive to take whatever 
action with whatever unique resources are available because 
this is such an immediate and dangerous threat not just to this 
country but the entire globe?
    Why wouldn't the authorization be that broad?
    Mr. Brennan. I, personally, think it probably should be 
that broad. Again, the President can restrict what he chooses 
to do but I think this AUMF is going to continue beyond this 
presidency and I think that what we shouldn't do is limit the 
next President based upon what this President may not want to 
do.
    Mr. Emmer. Last question. And Mr. Ambassador, I am sorry if 
I am getting pinched. But that is what I would expect is the 
answer. Just common sense would tell me, not necessarily the 
experience, because I don't have yours.
    But the only limitation--I am going to ask you if this is 
accurate or if you would disagree with this--the only 
limitation if there was one should be in the amount of time so 
that it has to come back to Congress for reauthorization and a 
discussion of what the strategy has been, where it has been. I 
mean, would that be the only----
    Mr. Brennan. I think that would be perfectly acceptable to 
put a period of time.
    Mr. Emmer. How long?
    Mr. Brennan. I would go beyond the 3 years, maybe 4 years 
so the next President has some time to look at it, to revise 
the strategy and make the changes he needs before it comes to 
you.
    Mr. Emmer. Thank you, and I--my time has expired.
    Chairman Royce. Mr. Alan Grayson of Florida.
    Mr. Grayson. Thank you.
    Section 2(c) of the President's draft authorization for the 
use of military force reads as follows:

          ``The authority granted in subsection A does not 
        authorize the use of U.S. armed forces in enduring 
        offensive ground combat operations.''

    Ambassador Jeffrey, what does enduring mean?
    Ambassador Jeffrey. My answer would be a somewhat sarcastic 
one--whatever the executive at the time defines enduring as, 
and I have a real problem with that.
    Mr. Grayson. Dr. Brennan?
    Mr. Brennan. I have real problems with that also, not only 
because it is--I don't know what it means. I could just see the 
lawyers fighting over the meaning of this.
    But more importantly, if you are looking at committing 
forces for something that you say is either vital or an 
important interest of the United States and you get in the 
middle of a battle and all of a sudden are you on offense or 
are you on defense, what happens if neighbors cause problems? 
Wars never end the way that they were envisioned and so I think 
that would be a terrible mistake to put it in the AUMF.
    Mr. Grayson. Dr. Rand?
    Ms. Rand. Enduring, in my mind, specifies an open 
endedness. It specifies lack of clarity on the particular 
objective at hand.
    Mr. Grayson. Dr. Rand, is 2 weeks enduring?
    Ms. Rand. I will leave that to the lawyers to determine 
exactly.
    Mr. Grayson. So your answer is you don't know, right? How 
about 2 months?
    Ms. Rand. It would--again, I think it would depend on the 
particular objective. Enduring, in my mind, is not having a 
particular military objective in mind.
    Mr. Grayson. So you don't really know what it means. Is 
that a fair statement?
    Ms. Rand. Enduring, in my mind, means open ended.
    Mr. Grayson. All right. Section 5 of the draft 
authorization of the use of military force reads as follows:

          ``In this joint resolution the term associated 
        persons or forces means individuals and organizations 
        fighting for, on behalf of or alongside ISIL or any 
        closely related successor ending hostilities against 
        the United States or its coalition partners.''

Ambassador Jeffrey, what does alongside ISIL mean?
    Ambassador Jeffrey. I didn't draft this thing but----
    Mr. Grayson. Nor did I.
    Ambassador Jeffrey. Nor did you, but I would have put that 
in there if I had been drafting it and the reason is I think 
they went back to 2001.
    Of course, this is the authorization we are still using 
along with the 2002 one for this campaign, and these things 
morph. For example, we have had a debate over whether ISIS is 
really a element of al-Qaeda.
    It certainly was when I knew it as al-Qaeda in Iraq in 2010 
to 2012, and these semantic arguments confuse us and confuse 
our people on the ground in trying to deal with these folks. 
You will know it when you see it if it is an ISIS or it is an 
ally of ISIS.
    Mr. Grayson. How about the Free Syrian Army? Are they 
fighting alongside ISIL in Syria?
    Ambassador Jeffrey. No, they are not fighting alongside 
ISIL. In fact, often they are fighting against ISIL and ISIL 
against them in particular.
    Mr. Grayson. What about Assad? Is he fighting for or 
against? It is kind of hard to tell that scorecard, isn't it?
    Ambassador Jeffrey. It sure is.
    Mr. Grayson. Yes. What about you, Dr. Brennan? Can you tell 
me what alongside ISIL means?
    Mr. Brennan. No, I really couldn't, and I think that what--
you know, it might be--the 9-11 Commission uses the phrase 
radical Islamist organizations and I think maybe if we went to 
wording like that it includes all of those 52 groups that 
adhere to this type of ideology that threaten the United 
States.
    But we are putting ourselves in boxes and, as you said, 
Congressman, I am trying to understand that means, what the 
limits are, who we are dealing with. It is very confusing.
    Mr. Grayson. Dr. Rand?
    Ms. Rand. Well, first of all, I believe that the confusion 
is probably a function of the fact that this is an unclassified 
document so it is not going to specify exactly which group or 
consider associates.
    That would be for a classified setting. But, second, as I 
said in the testimony, the nature of the alliances within ISIL 
are changing and are fluid and those who are targeting--the 
military experts know exactly who is a derivative or an 
associate or an ally of ISIS at any given moment.
    Mr. Grayson. Why are you so confident of that? It seems to 
me it is a matter of terminology, not a matter of ascertainable 
fact.
    Ms. Rand. Based on my public service. I have seen some of 
the lawyers and some of the methodologies and----
    Mr. Grayson. All right. Here is the $64-billion question 
for you, Ambassador Jeffrey, and then if we have time, for you 
others. If you can't tell us--you three experts can't tell us 
what these words mean, what does that tell us? Ambassador 
Jeffrey.
    Ambassador Jeffrey. That it is very difficult to be using a 
tool basically designed to declare war or something like war on 
a nation state which has a fixed definition against a group 
that morphs, that changes its name, that has allies and other 
things.
    Do we not fight it? We have to fight it. Are we having a 
hard time defining it? You bet.
    Mr. Grayson. Dr. Brennan?
    Mr. Brennan. I would agree with the Ambassador. I think the 
issue that we need to be looking at is trying to broaden 
terminology and understand that it is the tenets or 
organizations and groups that adhere to this ideology and make 
it broad enough that if one pops up in a different country that 
is doing the same thing that is a sister of this organization 
the President has the authority to act.
    Mr. Grayson. Dr. Brennan, I think you just described a 
blank check, which I am not willing to give to the President or 
anybody else. But thank you for your time.
    Chairman Royce. We go now to Mr. Ron DeSantis of Florida.
    Mr. DeSantis. Thank you, Mr. Chairman.
    When the President addressed this issue in September, the 
White House said that he had authority to act based on the 2001 
and 2002 AUMF, and so the media is reporting that he is asking 
Congress for authority.
    But by their own view, he is asking Congress to restrict 
and limit the authority both by whatever--and I agree these 
are--these terms are nebulous but having some prohibition on 
the use of ground forces and having a time limit and I agree 
with the witnesses, I don't think that that is an effective way 
to fight an enemy.
    I think you need to determine the enemy, determine the 
strategy and then bring all force to bear or be willing to do 
that and, obviously, the commander in chief needs to make these 
decisions.
    But so I am trying to figure out what is motivating this 
and I think it is because if you look at the way things are 
going, if you look at the strategy that is in place or lack of 
strategy, this is not going to succeed and I think everybody 
understands that.
    And so I think the President is looking to get Congress as 
imprimatur on his strategy so that he can then point the finger 
at us and say well, these guys limited me--I am just, you know, 
we all thought this was a good idea and right now he is kind of 
out there.
    Congress is urging him to do different, and he gave an 
interview this week where he said look, you know, terrorism--
the news makes a big deal about it--it is just something like a 
big city mayor--you know, you got to deal with criminals and 
such.
    So I am thinking, like, Guiliani when he used to get these 
guys with the squeegees who would do that, I am, like, is that 
really how you are seeing it. So I am skeptical of the 
motivation for doing this now.
    Let me ask you this, Dr. Brennan, because I think that this 
kind of informs where we are going. Is the problem a group of 
violent extremists who happen to be--go by the name of ISIS or 
whatever you want to call them, or is this a global jihad that 
presents national security implications and threatens our 
national security and our allies, not just in this part of 
Syria or that part of Iraq but really in countries across the 
globe?
    Mr. Brennan. I think it is useful to look at this as not as 
a terrorist organization. It is a global phenomenon that we are 
seeing and I think you can also look at it as a global 
insurgency where you have sister organizations sprouting up all 
over the world fighting in support of the same type of ideology 
even though they may not have direct linkage or direct command 
and control.
    Again, and I may use loosely the analogy of the 20th 
century when we had Marxist revolutions all over the world, 
many of them didn't like each other, didn't work with each 
other but they supported each other in different ways and I 
think that is the way of looking at it.
    Mr. DeSantis. Dr. Rand mentioned, I think, accurately that 
a lot of these Sunni tribesman in Iraq, certainly, when I was 
serving there, they are really not jihadists. They are Sunni 
Arabs and if they think that back then AQI was better than the 
deal they get with the central government then they were out to 
do that and if they think it is a Shi'ite government then that 
is going to push them further.
    So I guess my question is is if you look at the 
administration's policy there is a clear attempt to have a 
major rapprochement with Iran. If you look at Yemen now it 
could potentially be an Iranian client state.
    The Assad--I know we have been through different 
machinations there but I think the administration is content to 
leave Assad there. And so if you are just the average Sunni 
Arab wanting to figure out should you kind of work with the 
Americans and whatever forces that we may be supporting or 
should you work with some of the Sunni jihadist groups, if they 
see us as a facilitating Shi'ite domination of the region isn't 
that going to push some of these Sunni Arabs who are not 
necessarily jihadists into the arms of the more radical Sunni 
groups? Ambassador?
    Ambassador Jeffrey. Absolutely, which is why we can't pick 
a side in the Sunni-Shi'a struggle any more than we can pick a 
side in the Christian-Muslim struggle in the Balkans.
    We have to have a set of values and friends who accept them 
and go after everybody who is violating them, whether they are 
coming out of Mosul or they are coming out of Tehran or they 
are coming out of Damascus.
    Mr. DeSantis. So if you have, for example, ISIS fighters 
threatening the outer Baghdad belts and you have Shi'ite 
militia groups, which we have considered to be terrorists when 
we were in Iraq and that are supported by Iran's Quds Force, 
some have said well, there is kind of an alliance with the 
U.S.--you know, we were supporting some of the anti-ISIS forces 
in other parts of Iraq and we were essentially relying on the 
Iranian-backed forces to keep ISIS out of Baghdad, is that a 
sustainable strategy?
    Ambassador Jeffrey. In the long run, no. But there is a 
saying, you slay the wolf closest to the sled. Right now, when 
ISIS is moving forward we should be working with anybody that 
can stop them. But they have really not moved forward anymore. 
Now we got to figure out how to go get them and that is not----
    Chairman Royce. Mr. Ted Deutch, the ranking member of the 
Middle East Subcommittee.
    Mr. Deutch. Thank you, Mr. Chairman. Thanks to the 
witnesses for your willingness to come and stay through all 
these questions.
    I would like to associate myself with many of my 
colleagues' comments on the tragic death of Kayla Mueller. I 
would also like to thank the chair and ranking member for 
working to ensure the committee has a strong voice in this AUMF 
process.
    I welcome the President's request for an authorization for 
the use of military force against ISIL. We deserve to have a 
real and robust debate in Congress over the use of our military 
in order to ensure that our mission is clear and to ensure that 
past mistakes are not repeated.
    I would like to follow up actually the last two members, 
both of my Florida colleagues had said, and I want to start by 
asking Ambassador Jeffrey in this discussion about whether 
ground troops are needed to combat ISIS.
    We talk a lot about--the President has spoken a lot about 
letting our partners in the region take the lead. The question 
is what would be the impact of having Jordanian or Emirati 
troops on the ground.
    What would the United States' role be in getting back to 
the back and forth that all of you had a little while ago? How 
would--would our role serving aside those troops in a--in 
something less than an enduring or could our role be described 
as anything less than an enduring end offensive role?
    Ambassador Jeffrey. I think that--again, I didn't draft 
this thing but the drafters probably wanted to link enduring 
and offensive because we have an enduring presence in the 
Middle East. We have had combat troops in Kuwait for over a 
decade since I was there in the mid-90s. So it isn't a question 
of enduring.
    It gets to could we use Jordanian troops. Absolutely, but 
there are lots of political problems and, frankly, we have 
never seen Arab troops on the offensive in any of our earlier 
wars, not in Iraq and not 2003 with a few exceptions, not in 
Afghanistan and not in Kuwait.
    There are huge taboos about that in the Arab world. Some of 
them might be broken with some countries. My----
    Mr. Deutch. Well, do you think--I am sorry. Do you think 
they have been? Do you think in light of recent events we 
wouldn't face those same political hurdles?
    Ambassador Jeffrey. If I were advising the President I 
would say be very careful about that because the main value of 
these allies is their political support which plays well here 
and what they are doing in their own societies to deal with 
this violent Islamic manifestation.
    If they start taking a lot of casualties in ground combat 
against ISIS, and they will--look at the Kurds, 500 or 600 
killed--that is going to be very hard for them to sustain in 
their publics.
    Again, as I mentioned in my opening remarks, these are 
countries that are very weak states. They have lots of problems 
internally.
    Mr. Deutch. All right. So do you think, and I--Dr. Brennan 
and Dr. Rand--do you think, given the concerns Ambassador 
Jeffrey just laid out it is realistic to believe that a ground 
war could be fought by those troops without U.S. troops?
    Mr. Brennan. I think U.S. troops have got to be there, and 
with the peshmerga we need to be--get out up front but even 
with the Iraqi military. As we start pushing into Anbar 
Province and especially as we start moving into some of the key 
cities and most importantly Mosul, it will be critically 
important to have our troops with them.
    Exactly what that composition of troops is I think it 
depends on the situation at the time and the commander's 
analysis. But I think that if Congress is going to look at this 
and believe that this is something worth fighting for, then we 
need to give the commanders on the ground some flexibility.
    Mr. Deutch. Doctor, and let me ask you something else, 
because I only have 1 minute left. This AUMF only deals with 
the 2002 AUMF. It doesn't touch the 2001 AUMF.
    So the real question that I think a lot of us have is, as 
Congressman DeSantis said earlier, if the argument is that 
everything we are doing now we can pursue pursuant to the 2001 
AUMF, then should we assume that whatever the limitations are 
that ultimately might be included in this AUMF, however broad 
those limitations are, that ultimately we could wind up doing 
anything we want pursuant to the existing 2001 AUMF anyway?
    Ms. Rand. No, I don't believe that is the intention. I 
believe the intention is to make----
    Mr. Deutch. No, no, no. I understand--I am not talking 
about the intention. I am asking whether you could still rely 
upon the 2001 AUMF to conduct whatever operations regardless of 
what is contained in here.
    Ms. Rand. ISIS is a different threat than al-Qaeda. The 
2001 AUMF----
    Mr. Deutch. I--so you think no. Ambassador Jeffrey, you 
think yes?
    Ambassador Jeffrey. Of course. The President has done 
everything he has done up to now, 2,000 air strikes drawing on 
that, and it is a very broad thing. I actually like it but I am 
having to give you an honest answer and, yeah, that is a 
problem.
    Mr. Deutch. Thanks. Thank you, Mr. Chairman.
    Chairman Royce. Okay. We go now to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. Gentlemen, ma'am, I 
appreciate you all being here.
    Dr. Brennan, you said since the Carter presidency the U.S. 
have been the guarantors of peace in the region, and I look at 
Israel and Palestine, Syria with 220,000 dead plus, and we know 
the situation in Afghanistan, Iraq, Libya, Yemen, Lebanon. 
Jordan is a bright spot and let us not forget Iran. How do you 
assess we have done since the Carter administration?
    Mr. Brennan. Well, I think our success rate has not been 
high.
    Mr. Yoho. Okay. And I heard our President the other day say 
that if a failed policy like Cuba has not worked after 50 years 
it has to change.
    I agree with that statement. I am not going to go into the 
Cuba debacle right now. Our whole process in the Middle East 
has to change because where do the ISIS come from? Dr. Brennan, 
you go ahead.
    Mr. Brennan. Originally, it came from al-Qaeda in Iraq, 
then morphed into ISI, then later into ISIS.
    Mr. Yoho. And then if we go back to what the President is 
saying here, that we are going to degrade and defeat ISIS, I 
remember those statements in the Iraq War, Mission 
Accomplished. But we weren't done.
    I remember this President saying al-Qaeda is on the run, 
they are the JV team, they are gone. And the question I have 
for all three of you is what is the definitive definition of 
defeat of ISIL. Because ISIL is an ideology.
    We are not fighting a nation state. It is like fighting a 
tumor that metastasizes and we are going after the metastasis--
we are not going at the root cause.
    So I would like to hear a definition of defeat, a 
definitive one, and then I would like to hear what your root 
cause is of why there is an ISIS, why there was an al-Qaeda, 
and I have got one other question after that. Ambassador, if 
you would go first.
    Ambassador Jeffrey. It is a good point and it is the major 
flaw of this draft. The draft doesn't tell. You give this back 
to the President and it doesn't authorize the President to do 
anything more than using armed forces against ISIL.
    It doesn't say defeat, although that is one of the things 
that he says is his goal or working to defeat in the Whereas. 
So there is no goal. One of the reasons we have all been 
debating about how long this thing should be or whether--what 
kind of troops and what enduring the hell means is that there 
is no goal.
    My goal is to defeat ISIS, is to destroy its hold on Tehran 
and Iraq and Syria. That is what should be in this thing. That 
is a military mission. We can do it, if possible, with our 
allies.
    Potentially, we will have to use our own forces. If that is 
a vital mission that is what the President should be tasked to 
do by you.
    Mr. Yoho. I think you are absolutely right, and if we don't 
define what ISIL is as a radical Islamic jihadist group you 
can't--you can't defeat it.
    It is like let us build a house and I give you a bunch of 
two by fours and the material and you are, like, well, what is 
the plan--I don't know, just build a house, and that is what I 
see here. I know that is a simple analogy or a bad analogy but 
I see us wanting to commit but not really wanting to commit.
    It is like you are not playing to win--you are playing not 
to lose. And it is just if we are not going to go in there with 
a very specific strategy this is a bad idea. Dr. Brennan, what 
is your opinion?
    Mr. Brennan. I agree with that and I think that what you 
need to do to defeat Iraq and Syria or ISIS is to understand 
that we are putting, at some level an artificial distinction, 
at the border between Iraq and Syria.
    We have to look at the entire organization. I agree Iraq 
first, but we need to be thinking about how do we attack this 
entire organization and make certain that it no longer controls 
territory. And the Ambassador is exactly right, that is a 
military objective.
    But it means that we have to be able to move into Syria 
also.
    Mr. Yoho. Which is attacking a sovereign state. It may be a 
failed state but we are attacking that and that just opens up a 
whole another can of worms.
    Mr. Brennan. Absolutely.
    Mr. Yoho. Dr. Rand, go ahead and weigh in on that.
    Ms. Rand. I would just disagree with my colleagues in the 
sense that I----
    Mr. Yoho. Did you say disagree?
    Ms. Rand. I would disagree in the sense that I think the 
strategy--there is, again, preliminary evidence that it is 
working. This is what the military advisors to the President 
are recommending as a way to defeat the enemy, right.
    So this combination of limited U.S. force with air strikes 
paired with the coalition partners on the ground has killed 
7,000 ISIS fighters out of an organization that----
    Mr. Yoho. How many have grown out of that, though? Every 
time you kill one you get 10 or 20 more that join the cause. So 
are we winning?
    Ms. Rand. And has helped the Iraqi forces--the partners--
the Kurds and the Iraqi security forces retake key strategic 
areas. So in my mind, the strategy should be assessed based on 
how well it is working and so far in 5 months I think there is 
limited and preliminary but significant evidence that this 
combination of limited U.S. force and partners is working.
    Mr. Yoho. I appreciate your time. I am out of time. Thank 
you, Mr. Chairman.
    Chairman Royce. I thank the member from Florida.
    Well, we appreciate the time of all of our witnesses here 
today and this was a start of a very important conversation.
    So I think as we deal with this--deal with this growing 
threat from ISIS and as we deal with the President's request we 
thank you again.
    We are going to be submitting some additional questions to 
our panel. I appreciate your response, and we stand adjourned.
    [Whereupon, at 1:01 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

                                 <all>
</pre></body></html>
